Audit
Report
             CONTROLS OVER THE INTEGRATED
               ACCOUNTS PAYABLE SYSTEM


Report No. D-2000-139                          June 5, 2000



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
General, DoD, Home Page at: www.dodig.osd.mil.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-2885

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




   Acronyms

   ANG                   Air National Guard
   CAGE                  Contractor Activity Government Entity
   CCR                   Central Contractor Registry
   CEFT                  Contractor Electronic Funds Transfer
   DFAS                  Defense Finance and Accounting Service
   DUNS                  Data Universal Numbering System
   EFT                   Electronic Funds Transfer
   FAR                   Federal Acquisition Regulation
   FSO                   Financial Services Office
   GAO                   General Accounting Office
   IAPS                  Integrated Accounts Payable System
   MORD                  Miscellaneous Obligation and Reimbursement Document
   OMB                   Office of Management and Budget
   OPLOC                 Operating Location
   PPA                   Prompt Payment Act
                         Office of the Inspector General, DoD
Report No. D-2000-139                                                    June 5, 2000
 (Project No. D1999FI-0081) (formerly Project No. 9FI-5019)

                            Controls Over the Integrated
                             Accounts Payable System

                                   Executive Summary

Introduction. The audit was conducted at the request of Senator Charles E. Grassley.
The Defense Finance and Accounting Service (DFAS) uses the Integrated Accounts
Payable System (IAPS) to make vendor payments in support of the Air Force. Serious
internal control weaknesses have been reported over the years in DoD payment
processes and systems. Starting in June 1997, a legislative assistant of Senator
Grassley and a senior Air Force official reviewed the circumstances that allowed an
Air Force noncommissioned officer assigned to DFAS to make fraudulent payments. In
September 1998, they reported that the case was symptomatic of widespread
vulnerability to fraud. In support of their review, the General Accounting Office also
reviewed two specific cases of fraud involving vendor payments made with Air Force
funds. The General Accounting Office concluded that the two cases of fraud resulted
from a weak internal control environment. In February 2000, the Air Force Audit
Agency reported that, although internal controls had improved, pay technicians and
certifying officers did not consistently comply with established controls governing
payments.

Objectives. The overall audit objective was to evaluate the controls associated with
IAPS and its computation of vendor payments. We also reviewed the effectiveness of
the management control program as it related to vendor payments.

Results. The DFAS Denver Center improved controls over the processing of payments
by separating organizational responsibility for vendor payment functions, developing
access levels in IAPS that corresponded with the segregation of organizational
responsibility, and reducing the number of employees with access to IAPS. The actions
taken by the DFAS Denver Center improved management controls; however, further
improvements were needed.

Although DFAS Denver Center and the Air Force changed access levels of personnel,
controls over IAPS still did not effectively prevent unwarranted and unauthorized
system access and ensure adequate audit trails. As a result, IAPS vulnerabilities had
not been minimized, and individuals might be able to circumvent the interest
requirements of the Prompt Payment Act (Finding A).

Controls over vendor payment operations did not ensure that vendor payments were
properly supported and represented valid payments. Our review indicated that
approximately 176,000 of the 306,939 contract and miscellaneous payments made
between April 1 and June 30, 1999, lacked, to various degrees, support required by
regulations implementing the Prompt Payment Act. The determination that a payment
was not supported did not mean that the payment was invalid or fraudulent. However,
documentation to support payments is a key internal control, and deficiencies in that
documentation increase the risk of error and fraud (Finding B).

The internal control structure of vendor payment operations needed further
improvements to ensure that documents were adequately controlled and payments were
properly supported. As a result, the DFAS Denver Center could not ensure that
improperly supported and erroneous payments would be detected and corrected before
payment (Finding C). See Appendix A for details on the management control program
as it relates to controls over vendor payments.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) amend DoD Regulation 7000.14-R, the “DoD Financial Management
Regulation,” volume 10, to fully comply with requirements of 5 Code of Federal
Regulations Part 1315, “Prompt Payment Act; Final Rule,” and standardize the rules
for making miscellaneous payments. We recommend that the Director, DFAS Denver
Center, properly align access levels to IAPS, reduce or eliminate unnecessary access,
and discontinue the practice of removing invoices from IAPS without supervisory
approval. We also recommend that the Director, DFAS Denver Center, rescind local
guidance and develop a desktop guide to facilitate compliance with DoD guidance,
implement a business structure that results in better control over and more detailed
reviews of supporting documents, develop management tools needed to improve
detection and correction of control weaknesses, and report access to IAPS as a material
management control weakness. We recommend that the Director, DFAS Denver
Center, in coordination with the Assistant Secretary of the Air Force (Financial
Management and Comptroller) and the Director, Air National Guard, reduce the
number of individuals granted authority to update information in IAPS and develop
controls to ensure that no individual can make fraudulent or unsupported payments.
We also recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics make needed changes to forms used as receiving reports. We recommend
that the Assistant Secretary of the Air Force (Financial Management and Comptroller)
work with the Air Force contracting community to ensure that all contract documents
provide the information needed to make proper payments.

Management Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) and the Deputy Director, DFAS, concurred with most
of the recommendations, although both sets of comments stressed that the audit results
did not mean there was a high risk of fraud or circumvention of the Prompt Payment
Act. DFAS agreed to further improve its monitoring of IAPS access and eliminate
unnecessary access. The Air Force agreed to work with the DFAS Denver Center to
reduce access for base-level individuals who do not use IAPS for extended periods of
time. They also agreed to assess the need for Rome Laboratories to maintain obligation
functions and, if necessary, move the work load to a DFAS operating location. The
Director, Air National Guard, did not provide comments on the draft report. However,
DFAS agreed to coordinate access for Air National Guard personnel with the Director,
Air National Guard, and, if necessary, relocate the work load to the DFAS operating
locations. DFAS did not agree that supervisory approval was needed before deleting
invoices from IAPS.

The Under Secretary of Defense (Comptroller) agreed to amend DoD Regulation
7000.14-R, volume 10, after the Federal Acquisition Regulation is updated. He agreed
to assess the guidance on miscellaneous payments. The Deputy Director, DFAS,


                                         ii
agreed to rescind DFAS-DE 7010-2.R, “Commercial Transactions at Base Level,” after
DoD Regulation 7000.14-R, volume 10, is updated. Meanwhile, the DFAS Denver
Center has issued a new standard vendor pay guide to facilitate compliance with current
regulations. DFAS also agreed to work with the Air Force to ensure the proper use and
preparation of Miscellaneous Obligation and Reimbursement Documents. The
Air Force agreed to consider using a locally developed form to record receipt and
acceptance until standard forms are changed or an automated solution could be fully
implemented. The Air Force and DFAS agreed to work with the contracting
community to ensure that all contracting documents provide the information needed to
make proper payments. DFAS also agreed to improve the usefulness of a standard
product for obtaining missing receiving reports, implement management tools to detect
control weaknesses in the payment process, and establish positive document controls.
However, DFAS did not agree to establish a mechanism for tracking documents in the
operating locations. DFAS agreed that the ability of individuals to gain unauthorized
access to IAPS was a material weakness, but disagreed that the ability to remove
invoices from IAPS and problems with supporting vendor payments were material
weaknesses. See the Finding section of the report for a discussion of management
comments and the Management Comments section for the complete text of the
comments.

Audit Response. Comments from the Under Secretary of Defense (Comptroller),
DFAS, and the Air Force were generally responsive. We request that the Air Force,
Air National Guard, and DFAS provide comments on the final report by August 4,
2000.

Based on comments from DFAS and the Air Force, we have redirected
Recommendation B.3.a., to change the forms used as receiving reports, to the Under
Secretary of Defense for Acquisition, Technology, and Logistics. We request
comments on the recommendation by August 4, 2000.




                                        iii
Table of Contents
Executive Summary                                                     i
Introduction
     Background                                                       1
     Objectives                                                       2

Findings
     A. Access to the Integrated Accounts Payable System and Other
          System Concerns                                             3
     B. Documentation Supporting Vendor Payments                     12
     C. Management Control Structure                                 28

Appendixes
     A. Audit Process
           Scope                                                     42
           Methodology                                               43
           Management Control Program                                44
     B. Summary of Prior Coverage                                    46
     C. Statistical Sampling Methodology                             47
     D. Integrated Accounts Payable System Access Levels             49
     E. Guidance on Supporting Documentation                         51
     F. Structure of Vendor Payment Office                           55
     G. Report Distribution                                          57

Management Comments
     Under Secretary of Defense (Comptroller)                        59
     Department of the Air Force                                     62
     Defense Finance and Accounting Service                          70




                                       5
Background
    Vendor Payments. Vendor payments are made for operational support such as
    utilities, medical services, and administrative supplies and services. The vendor
    payment process depends on hard-copy documents. Payments must be
    supported by an obligating document (contract, purchase order, or other
    document that obligates the Air Force to pay for goods or services), an invoice,
    and a receiving report. For most payments, members of vendor payment teams
    at the DFAS operating locations (OPLOCs) review these documents for
    accuracy and completeness and enter information into IAPS to create a payment
    voucher, which is approved by a certifying officer. Certifying officers compare
    payment vouchers to invoices and receiving reports to ensure the accuracy of the
    payment information before disbursement. For Air National Guard (ANG)
    payments, most DFAS OPLOCs transfer the function of reviewing supporting
    documents and certifying payment vouchers to ANG units. Following
    certification, the payment information is loaded into the disbursing system. The
    disbursing system uses the payment transactions generated by IAPS to make
    disbursements.

    Congressional Request. Senator Grassley requested that the Inspector General,
    DoD, determine whether controls over IAPS vendor payments were adequate.

    Automated System for Making Air Force Vendor Payments. DFAS uses
    IAPS to control most installation-level commercial vendor payments for
    Air Force customers. The system computes accounts payable due dates,
    payment amounts, and interest payments. IAPS receives data from manual
    sources and from interfaces with several automated systems. IAPS uses both
    automated and manual controls to maintain accurate and complete data. DFAS
    plans to begin replacing IAPS with the Defense Procurement Payment System in
    December 2000.

    Role of DFAS. The DFAS Denver Center, Denver, Colorado, is responsible
    for the accounting, disbursing, collecting, and financial reporting of Air Force
    vendor payments. The DFAS Denver Center has six OPLOCs located
    throughout the United States. Four other OPLOCs that are under the control of
    two other DFAS Centers make vendor payments using IAPS. The DFAS
    Denver Center provides direction and guidance to the vendor payment teams at
    those four OPLOCs. The OPLOCs that make vendor payments using IAPS are
    identified in Appendix A. During FY 1999, about 1.2 million vendor
    payments, valued at $16.5 billion, were made for Air Force customers using
    IAPS.

    General Accounting Office (GAO) Report. At the request of Senator
    Grassley, the GAO reviewed two cases of fraud involving Air Force vendor
    payments. GAO, in Report No. GAO/AIMD-98-274, “Improvements Needed
    in Air Force Vendor Payment Systems and Controls,” September 28, 1998,
    concluded that the two cases of fraud resulted from a weak internal control
    environment. GAO reported that similar internal control weaknesses continued
    to leave Air Force funds vulnerable to fraudulent and improper vendor


                                      1
     payments. Many DFAS and Air Force employees had a level of access to IAPS
     that allowed them to enter contract information as well as invoice and receiving
     report information. Further, DFAS lacked procedures to ensure that the dates
     that invoices were received for payment and the dates that goods and services
     were received were properly entered in IAPS. These are critical dates for
     ensuring proper vendor payments and compliance with the Prompt Payment Act
     (PPA), which requires that payments made after the due date include interest.

     Air Force Audit Agency Report. At the request of the Assistant Secretary of
     the Air Force (Financial Management and Comptroller), the Air Force Audit
     Agency reviewed the goods and services processed through the 11th Wing,
     Bolling Air Force Base. Based in part on interim audit results, internal control
     improvements were made in vendor payment operations. In October 1998, the
     Office of the Assistant Secretary of the Air Force (Financial Management and
     Comptroller) and the DFAS Denver Center requested an expanded review of
     internal controls related to Air Force vendor payments.

     Air Force Audit Agency Report No. 98054032, “Internal Controls Over the
     Purchase of Goods and Services,” February 23, 2000, stated that Air Force and
     DFAS Denver Center personnel implemented internal control improvements
     during the review that reduced the risks associated with payments of goods and
     services. However, further actions were needed to improve controls over
     accounting system access and vendor payment transactions. The report stated
     that Air Force and DFAS controls over system access were generally adequate
     when implemented as designed, but additional improvements were needed. In
     addition, installation-level controls for authorizing and reporting purchases
     required strengthening. However, management personnel at several locations
     did not implement existing transaction controls. The Air Force Audit Agency
     planned to issue reports on FY 1999 financial statement audits that would also
     address vendor payments.


Objectives
     The overall audit objective was to evaluate the controls associated with IAPS
     and its computation of vendor payments. We also reviewed the effectiveness of
     the management control program as it related to vendor payments. See
     Appendix A for a discussion of the audit scope and methodology and our review
     of the management control program. See Appendix B for a summary of prior
     audit coverage related to the audit objectives.




                                       2
           A. Access to the Integrated Accounts
              Payable System and Other System
              Concerns
           The DFAS Denver Center established systematic controls to segregate
           duties and reduced access to IAPS. However, improved controls were
           needed to reduce the risk of unwarranted and unauthorized system access
           and to maintain adequate audit trails. Control weaknesses existed
           because:

                  • system access was not terminated when employees did not use
                    IAPS for extended periods of time,

                  • Air National Guard personnel were granted unrestricted access
                    without compensating controls,

                  • system access at Air Force installations was not reduced,

                  • passwords were shared, and

                  • IAPS allowed invoices to be removed from the system.

           As a result, IAPS remained vulnerable, and individuals could circumvent
           interest payments to vendors – payments that were required by the PPA.


Previously Reported Problems
    GAO issued Report No. GAO/AIMD 98-274, recommending that the Director,
    DFAS, strengthen payment processing controls by establishing separate
    responsibilities for entering payment data and revising vendor payment access
    levels to correspond with the new structure. GAO also recommended that the
    number of individuals granted access to IAPS be reduced.
    GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal
    Government,” November 1999, requires access restrictions and segregation of
    key duties in authorizing, processing, recording, and reviewing transactions.

    On August 19, 1998, the Director, DFAS, issued a memorandum that directed
    all DFAS Centers to perform a comprehensive review of the segregation of
    duties within their vendor payment offices and develop a plan of action to
    correct any problems. The DFAS Centers were also to review and reduce the
    access levels in IAPS.

Improved Access Levels Implemented in IAPS
    Access to IAPS. In response to the GAO report, the DFAS Denver Center
    reviewed and reduced the number of individuals with access to IAPS. The


                                     3
DFAS Denver Center also developed a system change that increased the number
of access levels in IAPS from 4 to 10. Appendix D identifies the 10 access
levels and describes the functions that each access level allows an individual to
perform in IAPS. The DFAS Denver Center also designed a new vendor
payment structure that segregated duties at OPLOCs. The system change was
implemented in IAPS on August 4, 1999. By increasing the number of access
levels, the DFAS Denver Center ensured that no individual could enter all the
data in IAPS needed to process a payment. Using the revised access levels, the
DFAS Denver Center tasked the OPLOCs to further reduce the number of
individuals with system access. Table 1 compares the total number of
individuals with IAPS as of July 23, 1999, and as of our visits to each of the
six DFAS Denver Center OPLOCs after implementation of the system change.


                              Table 1. Reductions in IAPS Access
                       Number of Individuals by                          Number of Individuals by
                    Organization With System Access                   Organization With System Access
                          as of July 23, 19991                             After System Change
 Location        OPLOC          FSO         ANG        Total       OPLOC            FSO         ANG        Total

 Dayton             365         274          82         721          3312           305           89        725

 Denver             301         462          47         810          1282           359           49        536

 Limestone          315         255          38         608          146            295           48        489

 Omaha              220         240          66         526          1472           322           79        548

 San                331         288          35         654          1352           274           31        440
 Antonio
 San                286         393          57         736          1572           317           61        535
 Bernardino
  Total            1818         1912         325       4055         10442           1872         357       3273

 1. Information for the Orlando and European OPLOCs was not available.
 2. Includes 138 individuals with Transactions For Others Cell inquiry access that had not been deleted when the
 Transactions For Others Cells were shutdown. This included 114 individuals at Dayton, 11 at Denver, 5 at
 Omaha, 5 at San Bernardino, and 3 at San Antonio.



The DFAS Denver Center OPLOCs significantly reduced the number of
individuals with access to IAPS. However, IAPS access in the FSOs and the
ANG was not significantly reduced. IAPS access approved by Air Force
Financial Services Offices (FSOs) decreased only slightly, from 1,912 to 1,872.
IAPS access within the ANG increased from 325 to 357.

Assignment of Access Levels Within the OPLOCs. Not all OPLOCs assigned
access levels consistent with the new standard internal control structure (see
Finding C), and the number of individuals assigned to each access level was not



                                               4
consistent among the OPLOCs. After the system change, the OPLOCs could
assign individuals to 8 of the 10 access levels. In most cases, access was granted
to correspond with an individual’s assigned tasks. Table 2* shows a breakdown
of unique access levels at each OPLOC as of our visits.


        Table 2. Unique Access at Each OPLOC by Name and Access Level
                           Clerk   Clerk    Clerk-                              Systems     Vend
                 Inquiry    IR       O      Recon       Sub                     Admin         or
                  Level    Level   Level    Level    Supervisor   Supervisor     Level       Pay
     Location      (05)    (07)     (08)     (10)    Level (30)   Level (50)      (63)      Level
                                                                                             (70)

    Dayton         61       83       35        14        10            0           9          0

    Denver         44       29       23        10         3            0           8          0

    Limestone      49       46       17        13         9            4           7          1

    Omaha          35       62       18        8          8            2           8          1

    Orlando        32       23       7         6          4            0           8          1

    European       26       37       17        12        17            2           9          1

    San            50       46       12        10         3            2           10         0
    Antonio

    San            40       60       22        14         7            4           4          1
    Bernardino




Levels of IAPS access were not assigned consistently among the OPLOCs. For
instance, the Vendor Pay access level was assigned at five of the eight sites.
When this access level was assigned, it was not assigned consistently to the
same positions within the OPLOC. The OPLOCs inconsistently assigned the
Sub-Supervisor access level. At two OPLOCs, three people were assigned the
Sub-Supervisor access level. At the European OPLOC, Ramstein Air Base,
Germany, 17 people had that access level. Since the Sub-Supervisor access level
allowed the user to change the electronic funds transfer (EFT) and remittance
information, it should have been given only to individuals in the reports and
reconciliation section. The European OPLOC inappropriately allowed
individuals on the payment teams to retain access. By allowing individuals on
the payment teams to have this level of access, individuals assigned to a single


*
    Table 2 represents only the access levels issued to individuals within the OPLOC. Two
    additional levels granted to individuals outside the OPLOC are not included.


                                           5
supervisor could enter all data necessary for payment. The DFAS Denver
Center should evaluate the differences among the OPLOCs in assignment of
access levels and eliminate unnecessary IAPS access.

Monitoring Base-Level Access. Opportunities existed to significantly reduce
IAPS access granted at Air Force installations. Access granted to individuals
outside the OPLOCs was vulnerable to potential misuse and needed to be
monitored. A total of 2,050 individuals at bases had access to IAPS. The new
system changes significantly reduced the functions that base-level individuals
can accomplish in IAPS. Since 1998, these functions have been reduced to the
recording of commitments and the updating of receiving report data.

        Update Access. Clerk-FSO (level 09) access was assigned to 938 people
at Air Force FSOs. The Clerk-FSO access allowed base financial managers to
update commitment information and input receiving report information. The
Clerk-FSO access should be limited to financial managers with job
responsibilities that require them to regularly update IAPS. The remaining
1,112 individuals at base level had only inquiry-level (05) access. This access
was granted to financial managers to allow them to track the expenditure of
funds and enhances the controls for ensuring proper payments.

        Lack of Use. About 34 percent (693 of 2,050) of the individuals at base
level with IAPS access were not using the system on a regular basis. OPLOC
reports showed that 693 individuals had not used IAPS within a 60-day period.
As the system managers, DFAS Denver Center personnel need to monitor
lengthy periods of system inactivity and remove access authority for individuals
who cannot justify continued access.

        Rome Laboratory. Four employees at Rome Laboratories, Rome,
New York, possessed Clerk-Obligation (level 08) access to IAPS. These were
the only employees outside the OPLOCs who had this access level. An
agreement between the Dayton OPLOC, Dayton, Ohio, and the Rome
Laboratory permitted the Rome Laboratory to enter its own obligations. The
Dayton OPLOC attempted to remove this access but was told that it was needed.
Segregation of duties requires Air Force financial managers to justify why this
level of access is required. If unnecessary, the obligation function for Rome
Laboratories will need to be returned to the OPLOC and the system access
removed.

ANG Access. Unrestricted IAPS access was given to 310 ANG employees at
99 ANG locations. The system change created a new level of access (level 06)
for ANG personnel. Level 6 access gave ANG employees the same unrestricted
access to IAPS that existed at the OPLOCs before the system change. The ANG
entered invoices, receiving reports, and obligating documents in IAPS and often
certified payment vouchers. Because ANG units did not have sufficient
personnel to properly separate duties, the ANG was given this unrestricted
access. However, neither the DFAS Denver Center nor the ANG had
established controls that compensated for the lack of separation of duties.
Because these payments were certified as proper by the ANG, OPLOC
personnel were not required to review the support for these payments, and did
not do so. A review of 15 ANG payments in our sample showed that 10 were



                                  6
    not properly supported. Unrestricted access to IAPS had previously resulted in
    fraud and improper payment practices at the Dayton OPLOC. Without
    separation of duties or proper monitoring of payments made by the ANG,
    payments made by the ANG may result in fraudulent or improper payments if
    not properly controlled. Unless adequate compensating controls can be
    established, the DFAS Denver Center should transfer responsibility for making
    ANG vendor payments to the OPLOCs and eliminate this access level.

    An additional 51 ANG employees had inquiry access. Reports indicated that
    93 of the total 361 ANG employees with IAPS access (40 inquiry and
    53 unrestricted) had not accessed the system within 60 days. DFAS Denver
    Center personnel need to monitor lengthy periods of system inactivity and
    remove access authority for individuals who cannot justify continued access.


System Concerns
    System weaknesses contributed to unauthorized IAPS access and the ability to
    circumvent interest payments (interest payments are required by the PPA).

    Shared Passwords. The ability of one user to open multiple screens to research
    and enter payment information was used to grant unauthorized system access.
    IAPS allowed a user to log on multiple times with the same user identification
    code and password. However, because this capability was not limited to one
    workstation, an employee could log in at multiple workstations simultaneously.

    During our visit to the OPLOC Orlando, Orlando, Florida, vendor payment
    managers allowed this capability to be used to let a new employee without
    system access perform payment-related functions in IAPS. The employee was
    logged on to IAPS by another technician, using the technician’s user
    identification code and password. This weakness allowed the employee without
    IAPS access to update IAPS vendor records. When the Director of the Orlando
    OPLOC was advised of this situation, the practice was stopped immediately.
    DFAS is taking action to determine whether potential fraud occurred and
    whether the employees involved should be disciplined. Although we recognize
    the need for an ability to open multiple screens within IAPS, the DFAS Denver
    Center must develop controls to ensure that this occurs only at a single
    workstation.

    OPLOC Orlando also reported that the system used to make Army payments had
    the material weakness of allowing a user to log on at multiple workstations with
    the same user identification code and password. A system change to correct the
    deficiency was requested. The DFAS Denver Center should request a system
    change to IAPS to correct this weakness or develop compensating controls if a
    system change is not feasible.

    Removal of Invoice Data from IAPS. IAPS allowed the removal of invoices
    without proper authorization or adequate audit trails. During our review of the
    eight OPLOCs, we determined that invoices had been removed from IAPS. Pay
    technicians had removed invoices from IAPS at the direction of installation


                                     7
   resource advisors. This situation came to our attention when we observed a
   technician entering invoices into IAPS. A detailed review of one of these
   invoices showed that an invoice dated September 15, 1999, was being entered
   into the system on February 29, 2000. The contract comments showed that on
   December 20, 1999, the invoice was removed from the system at the direction
   of Bolling Air Force Base (Bolling), Washington, D.C., which claimed
   nonreceipt of the goods. Bolling Air Force Base subsequently resubmitted the
   invoice on February 28, 2000, with a receiving report showing that the goods
   were received on September 22, 1999.

   Because the invoice received a new invoice receipt date upon resubmission, the
   vendor would not have been paid interest as required by the PPA. When we
   informed OPLOC managers of this situation, an appropriate invoice receipt date
   was entered into IAPS and interest was paid to the vendor. Denver OPLOC
   personnel explained that they often removed invoices based on directions from
   installation resource advisors that goods had not been received. Denver OPLOC
   personnel provided us a listing submitted by Bolling identifying several invoices
   that should be removed from IAPS because Bolling had not received delivery of
   the contract items. Denver OPLOC personnel further stated that they did not
   contact the vendors to verify that the goods had not been shipped before
   removing the invoices from IAPS.

   Another situation came to our attention when we tried to determine the status of
   unpaid invoices that appeared on IAPS reports. We could not locate several
   invoices on these reports because the invoices no longer appeared in IAPS and
   no audit trail showed what had happened to the invoice. At OPLOC Orlando,
   an invoice was selected to determine why it was not paid. Technicians at the
   OPLOC could not find this invoice, and it no longer appeared in IAPS. When
   we reviewed the contract files, the returned invoice listing, and IAPS contract
   comments, we found no audit trail for the invoice. The only proof that the
   invoice was entered into IAPS was the entry on the unpaid invoice report.
   OPLOC managers explained that contract comment screens did not always
   contain audit trails because technicians did not use the data and could remove it;
   the screens had a limited capacity, and older data may have been deleted.

   IAPS should not allow invoices to be removed from the system without leaving
   an audit trail. There may be legitimate reasons to remove invoices from IAPS,
   such as invoices that were previously paid or improperly entered in the system.
   However, an audit trail is needed so that management knows why the invoices
   were removed. Allowing invoices to be removed from IAPS allows interest
   payments to vendors, required by the PPA, to be circumvented.


Summary
   The DFAS Denver Center established systematic controls to segregate duties
   and reduced access to the IAPS. However, the DFAS Denver Center needed to
   reassess the system access given to users, especially users outside the OPLOCs.
   Giving access to more individuals than necessary increases the risk of
   unwarranted and unauthorized access and the likelihood that unsupported and



                                      8
    improper payments would be made. Other system weaknesses contributed to
    unauthorized IAPS access and the ability to circumvent interest payments to
    vendors, as required by the PPA. Additional actions must be taken to limit
    access to IAPS and ensure that audit trails are maintained to track invoices from
    receipt to payment, including any intervening actions that may affect payment.


Recommendations, Management Comments, and Audit
Response
    A.1. We recommend that the Director, Defense Finance and Accounting
    Service Denver Center:

            a. Align access levels to the Integrated Accounts Payable System to
    correspond with the separation of responsibilities and eliminate unnecessary
    access.

    DFAS Comments. The Deputy Director, DFAS, concurred and stated that
    DFAS is committed to eliminating unnecessary access and will assign system
    access according to the new, standard organizational structure for vendor pay.

    Audit Response. The DFAS comments are responsive. However, DFAS must
    ensure that each of the OPLOCs that use IAPS has similar levels of system
    access.

           b. Develop a procedure and time frame for removing access to the
    Integrated Accounts Payable System because of user inactivity.

    DFAS Comments. DFAS concurred, stating that the DFAS Denver Center has
    established a new database of individuals with IAPS access that will be used to
    monitor usage and identify candidates for termination.

    Audit Response. The DFAS comments are responsive.

           c. Direct that the practice of removing invoices from the Integrated
    Accounts Payable System be stopped unless supervisory approval is given
    and the reasons for removal are documented.

    DFAS Comments. DFAS partially concurred with the recommendation. The
    Deputy Director did not agree that supervisory approval was an effective
    control. He stated that the OPLOCs were required to maintain a log for all
    returned invoices.

    Audit Response. The DFAS comments are partially responsive. Strict
    management controls are needed to prevent the removal of invoices from the
    system before verifying with the vendor that goods and services were not
    delivered. The logs maintained at the OPLOCs did not contain sufficient
    information to explain why invoices were removed from the system and returned
    to the vendor. Requiring supervisory approval before removing invoices helps


                                      9
to ensure that the action was warranted. We request that DFAS reconsider its
position on the recommendation and provide additional comments on the final
report.

       d. Reduce the number of individuals at operating locations with the
authority to update information in the Integrated Accounts Payable System,
considering the organizational responsibilities of users and the frequency of
use.

DFAS Comments. DFAS concurred with the recommendation.

A.2. We recommend that the Director, Defense Finance and Accounting
Service Denver Center, in coordination with the Assistant Secretary of the
Air Force (Financial Management and Comptroller):

         a. Reduce the number of individuals granted authority to update
information in the Integrated Accounts Payable System at the installation
level, considering the organizational responsibilities of users and the
frequency of use.

Air Force Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) partially concurred, stating that providing user
access is a local management responsibility based on organizational needs. The
Air Force stated that it has significantly reduced the functions that installation-
level personnel can perform in IAPS since August 1998. As a result,
installation-level personnel can only view contract and payment status, update
commitments, and enter receiving report data. The Air Force stated that the
DFAS Denver Center will direct that IAPS reports be reviewed monthly and
remove individuals with inquiry access after 120 days of inactivity. Users with
other types of access will be deleted after 60 days of inactivity.

DFAS Comments. DFAS concurred in principle with the recommendation,
stating that the DFAS Denver Center will work with the Air Force on system
access.

Audit Response. The Air Force and DFAS comments are responsive. We
agree that the functions that base-level personnel can perform have been reduced
significantly and that this has enhanced the overall control environment.
However, we identified many employees who retained system access, despite
extensive periods in which they did not access IAPS. The Air Force proposal
for removing inactive users is reasonable.

        b. Remove the access that allows Rome Laboratories to establish
obligations in the Integrated Accounts Payable System.

Air Force Comments. The Air Force concurred in principle with the
recommendation, stating that the requirement for Rome Laboratories to establish
obligations in IAPS will be reevaluated. If not required, the work load will be
moved back to the OPLOC by July 30, 2001.




                                   10
DFAS Comments. DFAS concurred in principle with the recommendation,
stating that the DFAS Denver Center will coordinate system issues with the
Air Force.

Audit Response. The Air Force and DFAS comments are responsive. The
reevaluation, which should be coordinated with DFAS, should determine
whether maintaining this access is necessary. That determination should not
take more than 1 year to complete.

A.3. We recommend that the Director, Defense Finance and Accounting
Service Denver Center, in coordination with the Director, Air National
Guard, develop controls to ensure that no individual is allowed to enter
contract information as well as invoice and receiving report information and
remittance addresses, unless appropriate compensating controls are in place
and operating. If not feasible, relocate the vendor payment work load to
the operating locations and remove access level 06 from Air National Guard
employees.

DFAS Comments. DFAS concurred in principle with the recommendation,
stating that DFAS will work with the Air National Guard on limiting system
access and either restrict access or agree to relocate the work load to the
OPLOCs.

Audit Response. The DFAS comments are partially responsive. DFAS should
take prompt action to adjust access for Air National Guard personnel. We
request that DFAS provide additional comments on the final report, explaining
the actions planned to limit system access.

Air National Guard Comments. The Director, Air National Guard, did not
comment on the draft of this report. Therefore, we request that the Air National
Guard provide comments on the final report.




                                 11
           B. Documentation Supporting Vendor
              Payments
           Contractual payments were frequently not supported by documents that
           complied with the PPA. Miscellaneous payments also were not properly
           supported. Our review showed that approximately 176,000 of the
           306,939 payments made between April 1 and June 30, 1999, lacked
           elements of support prescribed in regulations implementing the PPA.
           The fact that a payment was not supported did not mean that the payment
           was invalid or fraudulent, but indicated failures to follow procedures.
           This occurred because:

                  • DoD guidance on supporting documentation conflicted with the
                    requirements in the Office of Management and Budget (OMB)
                    guidance and the Federal Acquisition Regulation (FAR),

                  • technicians incorrectly entered payment data into IAPS,

                  • obligation documents did not contain the information necessary
                    to make proper payments, and

                  • standard procedures were not developed to provide for proper
                    support for miscellaneous payments.

           As a result, DFAS Denver Center and Air Force managers assumed an
           increased risk that payments were not made in compliance with the PPA
           and that improper payments may have been made.


Review of Vendor Payments
    Types of Payments. The DFAS OPLOCs made payments that required varying
    levels of support in order to be considered proper. The PPA has strict
    requirements that supporting documents must meet in order to be considered
    proper. DFAS Denver Center OPLOCs made payments based on contractual
    documents that needed to comply with the prompt payment criteria and
    miscellaneous payments that the DFAS Denver Center had exempted from many
    support requirements.

    Criteria. Technicians entering data into IAPS needed to be familiar with
    guidance issued by several organizations. This guidance often gave conflicting
    information on what to use as adequate supporting documentation when making
    vendor payments. The principal guidance used for making payments to vendors
    was the PPA, as outlined in OMB Circular No. A-125, “Prompt Payment,”
    December 12, 1989. The circular was subsequently codified in 5 Code of
    Federal Regulations Part 1315, “Prompt Payment; Final Rule,” September 29,
    1999. The requirements for supporting documentation were further defined for
    DoD in FAR Subpart 32.9, “Prompt Payment,” and DoD FAR Supplement
    Subpart 32.9, “Prompt Payment.” The guidance was incorporated for DoD


                                    12
    financial managers in DoD Regulation 7000.14-R, the “DoD Financial
    Management Regulation,” volume 10, “Contract Payment Policy and
    Procedures,” November 1999.

    The DFAS Denver Center further defined the requirements for supporting
    documents in DFAS-DE 7010.2-R, “Commercial Transactions at Base Level,”
    January 31, 1996, and exempted many miscellaneous payments from the
    requirements.

    Sample Selection. To determine whether documentation used in supporting
    IAPS payments complied with the PPA, we obtained a population of
    306,939 payments, valued at about $3.4 billion, made in IAPS between April 1
    and June 30, 1999. Because the payments were made at 10 OPLOCs
    worldwide, using both U.S. and foreign currencies, we could not accurately
    determine the exact dollar value of the population. From this population, we
    selected a sample of 240 payments in three strata. The sample review assessed
    each item’s documentation (invoice, receiving report, and obligation document)
    against the criteria for proper support in the PPA and FAR. The sample also
    determined whether the data on the supporting documents were entered correctly
    in IAPS. Details concerning sample selection are in Appendix C.


Sample Results
    Approximately 176,000 of the 306,939 payments made between April 1 and
    June 30, 1999, were not supported in compliance with the PPA. The review of
    sample items showed that the OPLOCs required varying levels of support for
    contractual and miscellaneous payments. As a result, it was important to
    determine which category of payment each sample item represented. Of the
    selected items reviewed, 148 items were contractual payments, and the
    remaining were miscellaneous payments. Table 3 shows the projections of the
    estimated number of payments that were not properly supported for each type of
    payment. Appendix C gives details of projections and confidence levels.


              Table 3. Estimated Payments Not Properly Supported
                              by Type of Payment
                                                                Estimate of
         Type of Payment              Total Payments         Improper Payments

            Contractual                  163,892                   79,009

          Miscellaneous                  143,047                   96,922

               Total                     306,939                  175,931




                                    13
    Payments made to contractual documents were required to meet the PPA
    requirements or were considered improper. To determine whether
    miscellaneous payments were proper, we held them to similar standards.
    Although a case can be made for not holding this type of payment to strict
    standards, the DFAS Denver Center was required to develop a standard for
    supporting documentation for each type of miscellaneous payment to ensure that
    the payments were proper. The determination that a payment was not properly
    supported did not mean that the payment was invalid or fraudulent. Our sample
    showed that only 20 of the payments reviewed should not have been made to the
    vendor. Based on the requirements of the contract and documentation
    supporting the payments, the vouchers should have been voided and the
    necessary corrective actions taken before the payments were made. When
    projected across the population, this would result in between 8,395 and 41,638
    incorrect payments.

    The review of the sample items showed inconsistencies in how DFAS personnel
    interpreted the requirements for what was needed to properly support vendor
    payments. Generally, the requirements in the FAR, DoD Regulation
    7000.14-R, and the DFAS Denver Center guidance were in agreement with
    OMB Circular No. A-125. However, in some respects, the DFAS Denver
    guidance and DoD Regulation 7000.14-R conflicted with OMB Circular
    No. A-125. These documents did not always agree on what constituted a proper
    invoice, receiving report, and contract. The guidance in DoD Regulation
    7000.14-R also did not give sufficient details to guide the payment of certain
    miscellaneous payments. Further, the codification of the PPA in 5 Code of
    Federal Regulations Part 1315, on September 29, 1999, changed some
    requirements in OMB Circular No. A-125. Appendix E identifies the
    differences in the guidance. Some of the inconsistencies in the guidance
    contributed to the problems we identified in properly supporting vendor
    payments.


Contractual Payments
    Determination of Proper Payments. Payments made on contractual documents
    were expected to meet all PPA requirements for proper invoices, receiving
    reports, and contracts. If the documents were improper, they were to be
    returned to the originator and no payment made until the OPLOC received a
    clearly marked corrected copy of the document for payment. The results of the
    sample showed that about 79,009 IAPS payments were made between April 1
    and June 30, 1999, without proper support. The payments were made because
    DFAS had issued guidance that allowed OPLOCs to make payments without
    fulfilling all requirements of the PPA and because technicians failed to detect
    errors in the supporting documents when entering them into IAPS. During the
    review, we classified the items that were necessary for a document to be
    considered proper support for a payment. If the document did not meet these
    requirements, we considered it improper. Table 4 shows the estimated number
    of unsupported payments caused by each type of supporting document. Because




                                    14
more than one document could have caused a payment to be unsupported, the
total number of improperly supported payments in Table 4 exceeds 79,009
payments. Appendix C provides details of the sample.


          Table 4. Estimated Number of Payments Not Properly
                    Supported by Type of Document

    Improper Document                      Number of Payments

          Invoice                                 35,590

     Receiving Reports                            71,778

         Contract                             Not Reportable


Invoices. The PPA required that a vendor generate an invoice and send it to the
designated billing office specified in the contract when goods were delivered or
services performed. The designated billing office should immediately
date-stamp the invoice and perform a review to determine whether the invoice is
proper for payment. If the invoice is determined to be proper, it should be sent
to the payment office for entry into IAPS and payment as required by the PPA.
If determined to be improper, the invoice should be returned to the vendor
within 7 days of receipt, identifying all defects that prevented payment and
requesting that the vendor send a clearly marked corrected invoice to the
designated billing office for payment. Invoices were improper if they did not
contain a contract number, were inconsistent with the contract, did not
adequately describe what was purchased, or were altered. When our results
were projected over the entire population, about 35,590 invoices submitted were
not proper for payment and should have been returned. Appendix C gives
details of the sample projections.

        Contract Numbers. DFAS Denver Center OPLOCs made payments
based on invoices that did not have contract numbers identified on the original
invoices submitted by the vendors. The OPLOCS accepted the changed or
altered contract number added by the installation or added a pseudo-contract
number to the invoice. Our sample showed that this condition occurred for
14 payments made to contractual documents. For example, a contractor
submitted invoice number 50698471 to Rome Laboratories, identifying a
previous year’s contract number on the invoice. Instead of returning the invoice
to the vendor, the installation crossed out the old contract number and placed a
current-year contract number on the invoice. Further review of the contracts
showed that the monthly rate billed matched the older contract, but could not be
matched to any of the line items in the newer contract. In another case, invoice
number 0006, for moving and storage, provided the contract number for an
active blanket purchase agreement, but the Orlando OPLOC created a
pseudo-contract number and paid the invoice against it. In both cases, the


                                 15
potential existed for a duplicate invoice to be processed and paid against the
other contract without detection. OPLOCs and installations should return to the
vendor all invoices that are not submitted with the proper contract number.

        Consistency With Contract. Invoices submitted for payment should be
consistent with the contract. In 14 of the payments reviewed, the invoice was
not consistent with the contract. Observations of payment processing at the
OPLOCs showed that payment clerks did not always compare invoices to
contracts to determine whether items were billed correctly. For example,
invoice number 1050979 was submitted by a contractor for monthly services on
32 copiers at Scott Air Force Base, Illinois, for $5,216; however, the contract
authorized services on 28 copiers. The OPLOC did not detect this inconsistency
and overpaid the contractor by $630.70. Also, invoices received from
contractors often did not bill by contract line item number, and contracts were
sometimes written without specifying all the line items purchased. An invoice
number 99040159 for $2,387.76 was submitted to Scott AFB for lawn care for
the period April 18 through 24, 1999. The invoice did not identify what service
was being purchased, but charged for delivery of 1 item on a contract that
contained 87 line items. Only the receiving report identified the service as lawn
care maintenance.

        Alteration of Invoices. Invoices that do not meet the requirements for
properly supporting a vendor payment should be returned immediately to the
vendor for corrections. DFAS Denver Center issued procedures that allowed
for the alteration of invoice data, provided that the data were crossed out so the
original information could be read and initialed by the person making the
correction. We found that 19 invoices were altered so that the information
needed for payment would be proper. None of the invoices that were altered
were identified as corrected invoices. Individuals at the installations, not the
vendors who submitted the original invoices, usually corrected the invoices.
When questioned about the corrections, OPLOC technicians could not identify
the persons who made the changes. Because these invoices were not returned to
the vendors for correction, future invoices on the contracts could have the same
errors. DFAS should not accept for payment any invoice that has been altered
by anyone other than the originator of the invoice. To maintain a proper
segregation of duties, neither OPLOC nor installation personnel should be
permitted to make corrections to a vendor’s invoice. Invoices with missing data
should be returned to the vendor, who can make the needed correction and
resubmit the clearly marked, corrected invoice.

        Conflicts in Invoice Guidance. Guidance issued by the Office of the
Under Secretary of Defense (Comptroller) and the DFAS Denver Center caused
conflicts with the requirements for documenting that invoices were proper and
documenting their receipt by the designated billing office. DoD Regulation
7000.14-R, volume 10, allowed the payment of invoices that did not meet all
requirements. Using this exception, DFAS Denver Center personnel issued
guidance that established workarounds for accepting invoices that did not meet
the FAR requirements. They established guidance for creating invoice dates and
invoice numbers when the invoices did not contain that information. They also



                                  16
established guidance for accepting invoice receipt dates placed on invoices by an
installation when the date stamp could not be clearly identified with the
designated billing office.

              Invoice Dates. For an invoice to be proper, the FAR required that
the vendor place a date on it. Invoices offering discounts could be accepted
without an invoice date, but the DFAS Denver Center applied this guidance to
all invoices. This allowed the OPLOCS to use the invoice receipt date, or
constructive or actual acceptance date of goods and services, in place of the
invoice date. Our sample showed that the contractor did not place the invoice
date on five invoices.

             Invoice Numbering. DFAS and Air Force financial managers
need to require vendors to place a number on all future invoices. IAPS requires
a unique number to be placed in the system for each invoice to prevent duplicate
payments. Although the FAR strongly recommends invoice numbers, an
invoice number should be required for a valid invoice. The lack of a unique
number on the invoice makes it difficult to track individual payments through
the payment process and to prevent duplicate payments. Because contracting
documents do not require a unique number, the DFAS Denver Center developed
procedures for establishing a number when it was not on the invoice. The
guidance required the invoice date in the format “YYYYMMDD” in place of an
invoice number. It also authorized the use of suffixes if more than one
unnumbered invoice was received from the same vendor on the same date. For
nine invoices, an invoice number needed to be created in IAPS for the payment
to be made. When OMB Circular No. A-125 was codified, an invoice number
become a required element; therefore, these payments would now be considered
improper.

              Invoice Receipt Dates. Technicians must correctly enter into
IAPS the date an invoice was received in the designated billing office in order to
properly compute the payment date and determine whether interest is due the
contractor. The payment office must use the designated billing office’s date
stamp for determining the correct invoice receipt date. If a proper date stamp is
not on the invoice, the OPLOC is required to use the vendor’s invoice date.

               Our review of selected payments showed that 29 invoices were not
date-stamped by the designated billing office on receipt, and an additional
24 invoices contained a date stamp that could not be traced to the designated
billing office. When invoices were sent directly to an OPLOC, they were
usually properly date-stamped on arrival, clearly identifying the OPLOC.
However, when an invoice was sent to an activity outside the OPLOC, it was
often difficult to determine whether the date stamp was affixed to the invoice by
the designated billing office or another activity. In these instances, the date
stamp was often a date affixed to the invoice without any designation of the
office the stamp belonged to. For example, invoice number 003091521C,
which should have been received by the New York ANG contracting office, was
date-stamped by the accounting and finance office. The OPLOC used the date
stamped by the accounting and finance office as the invoice receipt date,
although the invoice was received several days earlier. In another case, invoice

                                  17
number 289290, received at Incirlik Air Base, Turkey, was date-stamped on
May 21, 1999, but the date stamp did not identify the base or organization that
stamped the date.

        Invoices Sent to Installations. We also identified invoices that were
being sent to installations unnecessarily. For instance, at Wright Patterson
Air Force Base, Ohio, contracts were written to have invoices sent to the base
instead of the OPLOC when no base certification was required. Sending the
invoice to the base slowed the payment process because the invoice had to be
sent to the OPLOC to be entered into IAPS, and the date that was stamped on
the invoice by the activity had to be used as the invoice receipt date. Air Force
contracting offices should require invoices to be sent to a base-level activity only
if a requirement exists for the user to certify what was being billed. In all other
cases, the normal process for receiving reports should be used, and the invoices
should be sent directly to the OPLOC. FSO personnel stated that the contracts
were written to allow the bases to know what invoices were received and to send
them to the OPLOC. Air Force managers should monitor whether invoices are
being sent to installations unnecessarily.

       Reasonableness of Dates. Checking the reasonableness of
invoice-related dates should be part of determining whether payments are
properly supported. As illustrated in the example on page 8, invoice receipt
dates can result in the circumvention of prompt payment to vendors. At the
eight OPLOCs, the invoice receipt dates did not appear to be reasonable; the
period of time between the invoice date and the receipt date stamp was
excessive. For example, invoice number 01260712 was mailed to the Dayton
OPLOC with an invoice date of January 26, 1999, but the date stamp read
March 11, 1999. This date was beyond a reasonable period for mail to be
delivered. The goods were received at Pope Air Force Base, North Carolina,
on January 28, 1999. Because an unreasonable date was used, the vendor was
not paid interest. DFAS and Air Force financial managers should monitor the
time between the invoice date and the date of receipt and question the
reasonableness of any date that appears excessive. Managers should also
determine whether personnel at the OPLOC or installations were circumventing
prompt payment by using unreasonable invoice receipt dates.

        Improvements Needed in Invoice Processing. To improve internal
controls over the processing of invoices, DFAS must require that all invoices
comply with the PPA. Invoices that do not meet all requirements of a proper
invoice should be immediately returned to the vendor with a request that a
corrected invoice be submitted. Air Force managers should ensure that contract
and solicitation documents clearly identify the requirements of a proper invoice;
specifically, an invoice must include a contract number, invoice number, invoice
date, and a clear description of what the vendor is invoicing for. Air Force
installation personnel should be directed not to alter invoices to make them
correct, but to return them to the vendor as required. Installation-level
personnel designated to receive invoices must immediately date-stamp the
invoices, clearly identifying the designated billing office. Air Force managers
should reduce the number of invoices sent to designated billing offices outside



                                   18
the OPLOC. Unless a requirement exists for an invoice to be certified by the
fund manager, the invoice should not be sent to a billing office outside the
OPLOC.

Receiving Reports. The PPA required that receipt be properly recorded at the
time of delivery of goods or completion of services. Activities were to ensure
that acceptance was executed as soon as possible after receipt. Receiving
activities were required to submit a receiving report immediately upon each
delivery of goods or completion of services, unless the contract stated that
partial payment was not authorized. Receiving activities were to forward a
proper receiving report to the payment office by the fifth working day after
acceptance for entry into IAPS. Some Air Force activities were testing a
procedure for entering their own receiving data. In either case, the receiving
activity was required to verify that the receiving report was proper before
entering it into IAPS. Appendix E discusses the items that are required for a
receiving report to be considered proper. DFAS issued guidance on March 10,
1999, and the Vice Chief of Staff of the Air Force issued a memorandum on
March 29, 1999, outlining the requirements of a proper receiving report for all
Air Force activities. The guidance explained that any receiving report not
complying with the guidance would be returned to the installation and could
result in interest penalties. Receiving reports were considered improper if they
did not show receipt and acceptance; the signature, printed name, address, title,
and telephone number of the designated Government official; were inconsistent
with the contract; did not adequately describe what was received and accepted;
or were altered. Our review of sample payments showed that 69 invoices did
not provide proper support for the payments. When projected to the entire
population, about 71,778 invoices were not proper for payment and should have
been returned. Appendix C contains details on sample projections.

        Receipt and Acceptance. The receipt and acceptance of goods and
services are two separate tasks performed at the installation level to ensure that
the Air Force receives the items or services contracted for. A review of the
sample items showed that 16 payments were either made without a proper
receipt date, or an incorrect date was entered into IAPS. The sample also
showed that receiving reports for 38 payments did not give the acceptance date
for goods and services received.

        DFAS Denver Center issued guidance stating that if the receipt block on
the DD Form 250, “Material Inspection and Receiving Report,” was signed, it
was to be considered a proper receiving report although the acceptance block
was not signed. The PPA required payments to be made based on either the
actual or constructive acceptance date. When no acceptance date was given, the
constructive acceptance date was to be used. The practice was also being used
on other types of receipt documentation.

         Requirements for Receivers. Detailed guidance had been issued to all
activities, stating that designated Government officials must include their
signature, printed name, address, title, and telephone number when verifying
receipt or acceptance. The review of sample payments showed that 49 receiving
reports did not give all this information. Technicians overlooked missing items

                                  19
or attempted to make the document valid by using information that the receiver
had not provided. For instance, technicians used information on other
documents to obtain an address or telephone number for the receiver. When the
data on the receiving report were included on an invoice, technicians used the
address placed on the document by the contractor as a mailing address when the
receiver failed to include the address.

        Adequacy of Forms. Our review of receiving documentation used to
support payments showed that the DD Form 250; DD Form 1155, “Order for
Supplies and Services;” and SF 1449, “Solicitation/Contract/Order for
Commercial Payments,” did not contain sufficient blocks. Space was not
provided for the receiver to enter a name, address, title, and telephone number
when receiving and accepting goods and services. Forms did not always
provide ample space to enter dates showing both the receipt and acceptance of
goods. Although guidance directs receiving activities to comply with the FAR,
until the forms provide space to record the required items, errors will occur.
DFAS and Air Force management should develop a single form for activities to
record receipt and acceptance, requiring receivers to provide all the necessary
information. Until a form is developed, DFAS should continue to return all
receiving reports that do not fully comply with established guidance.

        Proper Description of Goods and Services Received. Our review of
sample payments showed that 25 receiving reports did not contain an adequate
description of goods or services received. Examples of improper receiving
reports included those with a description that stated only “as in invoice” or
provided only an invoice number or dollar amount received. In other cases, the
receiving report was for items inconsistent with the items in the contract. The
invoice and receipt processes should be independent actions, and receivers
should clearly state the quantity and unit and extended price of goods or services
received. For example, a receiving report sent by Kirtland Air Force Base,
New Mexico, to support a payment gave the invoice number, “2X13,” and the
amount of the invoice to describe the goods being received. This did not give
proper assurance that the receiver actually received the items contracted for.
Other receiving reports were for the full value of contracts, but did not list the
items that were actually received.

        Improving Receiving Reports. DFAS Denver Center should ensure
that the receiving reports can give full details of the items or services actually
received. Any reports that do not meet this test should be returned to the
installation as improper. Air Force managers should consider developing a
receiving document that provides the blocks necessary for the receiving activity
to properly record all information needed to support payments and guarantee the
actual receipt of goods and services.

Obligation Documents. The obligation documents used for payment should
contain sufficient information for the payment office to properly match invoice
and receipt information and send the payment to the correct location.
Appendix E gives the requirements of a valid contract. The OPLOC was
required to make sure that all information needed for payment was entered
correctly into IAPS and made available to the clerks for processing. Our review
of sample payments showed that five contracts did not provide proper support

                                  20
    for the payment. Because the error rate was small, we did not project the
    number of contracts that were not properly supported. However, our review
    showed several major areas of concern in the processing of obligation
    information within IAPS, such as EFT and descriptions of goods and services.

           Electronic Funds Transfer. The Debt Collection Improvement Act of
    1996 required that payments be made electronically unless EFT requirements
    were waived under 31 Code of Federal Regulation Part 208.4. In addition,
    contractors were required to be registered within the Central Contractor
    Registry (CCR) in order to do business with DoD. DFAS had implemented a
    process for extracting the required information from the CCR into a Corporate
    EFT (CEFT) database that interfaced with IAPS. For technicians to make sure
    the correct information is entered, the contract must contain a valid Data
    Universal Numbering System (DUNS) number or a valid Contractor Activity
    Government Entity (CAGE) code. Many of the contracts reviewed did not give
    a DUNS number, and several had outdated CAGE codes, which made obtaining
    proper EFT information difficult. Because EFT is now the primary means of
    payment, contracting offices need to ensure that all contracts provide a valid
    DUNS number and CAGE code for payment processing.

           Remittance Addresses. The contract should provide the payment office
    with a valid address to which payments are to be made. When the contract is
    not specific, the DFAS Denver Center provides guidance for making payment
    based on the remittance address on the invoice. This procedure allows anyone
    submitting an invoice to change the remittance address and increases the risk of
    improper payments. Because contractors were required to register in the CCR
    beginning June 1, 1998, OPLOCs should check the remittance data on the
    invoice with the data in the CCR, and if the data on the invoice are not valid,
    the invoice should be returned to the originator to be corrected. During our
    review, we found at least six instances in which the remittance address on the
    invoice differed from that on the contract, and clerks changed the address within
    IAPS.

            Descriptions of Items and Services. The contract documents should
    clearly identify the goods or services that the Government is purchasing. When
    items are contracted for, the contract should list all items that will be received.
    We reviewed contracts that showed a single line item, but the invoice billed for
    several items. This makes it difficult for payment clerks to determine whether
    the items match the contract.


Support for Miscellaneous Payments
    The DFAS Denver Center issued guidance stating that payments such as claims,
    legal payments, and Miscellaneous Obligation and Reimbursement Documents
    (MORDs) were not required to meet the FAR guidelines for proper invoices,
    receiving reports, and obligation documents. However, the guidance did not tell
    the OPLOCs what was needed to ensure that the items paid for were received by
    the Air Force. Individual OPLOCs developed their own desk procedures to
    identify the information necessary to make each type of payment, but these
                                       21
procedures were not standard. At a minimum, DFAS should ensure that the
vendor has a valid claim against the Government and that an employee at the
installation ensures that the item or service being paid for was received and
provides a proper funding document.

Determination of Proper Payments. When payments made for miscellaneous
documents were compared to the PPA requirements for a proper invoice,
receiving report, and contract, documents were not provided to properly support
the payments. The sample showed that about 96,922 IAPS payments were made
between April 1 and June 30, 1999, without proper support (see Appendix C).
Improper payments occurred because the invoices did not contain an adequate
description of what was purchased, and the DFAS Denver Center did not direct
installation personnel to meet the requirements for receipt and acceptance of
these payments. The review showed that DFAS needs to develop a
miscellaneous payment guide. The guide should explain the contract numbers,
invoice numbers, and dates that are needed to properly support these payments.
The guide should also explain what constitutes proper receipt and acceptance for
these types of payments.

        Contract Numbers. Most miscellaneous payments did not contain a
contract number; only 17 payments had an obligation document number that was
placed on the document by the contractor. A pseudo-contract number needed to
be developed for entry into IAPS when payments were made using Air Force
Form 616, “Fund Cite Authorization;” a direct fund citation; or a MORD. At
the time of our review, this process was not standardized, making it difficult to
determine whether the contract numbers being used were sufficiently controlled
to prevent duplicate payments. DFAS should work with its customers to ensure
that pseudo-contract numbers are properly established. Air Force personnel
who contract for items or services or purchase goods using miscellaneous
documents should provide the vendor with the contract number that should be
included on the invoice to support the payment. This number should be
included on the invoice, and should not be added after the invoice is submitted
for payment.

       Proper Receipt and Acceptance. Payments must not be made until the
OPLOC ensures that a Government official acknowledges that goods or services
were received and accepted. Our sample showed that 51 miscellaneous
payments did not contain the name, address, title, and telephone number of the
Government official authorizing these miscellaneous payments. The supporting
documentation should give pertinent information on the Government officials to
provide an audit trail for the payment process.

        Use of MORDS. Installation activities were also issuing miscellaneous
obligation documents that did not clearly define the item or service being
purchased. As a result, payment clerks could not validate whether funds had
been obligated for the items billed. Lack of this information also prevented
managers from determining whether the MORD was being used correctly.

Development of Desktop Guide. The DFAS Denver Center needs to identify
all payments made using other than a contractual document and determine the
supporting documents necessary for payments. A desktop guide should be

                                 22
    developed, outlining how each of these documents should be recorded in IAPS
    and what constitutes a valid payment. At a minimum, DFAS Denver Center
    personnel must ensure that they have a valid claim from a vendor or individual,
    a proper obligating document, and proper acknowledgement from a designated
    official that goods or services were received.


Summary
    DFAS Denver Center and Air Force managers need to address proper support
    for the payments they make to vendors. Although we noticed significant
    improvement at the DFAS Denver Center’s OPLOCs, controls at other
    OPLOCs must be strengthened. For prompt payment, invoices received from
    vendors should meet all the requirements of a proper invoice. Invoices that fail
    to meet the standards should be immediately returned to the vendor for
    correction. Air Force activities should perform receipt and acceptance functions
    immediately upon delivery of goods or services and submit completed
    paperwork to the payment office. Documents used for receipt and acceptance
    should contain all requirements necessary for compliance with prompt payment
    or be returned for correction. Only the originating activity should alter
    documents supporting payments, and the documents should clearly state that the
    correction was made by that activity. Other activities should not be authorized
    to make corrections to payment documents. Contracting office personnel should
    write contracts that clearly provide all data needed for payment, including
    details of the items or services being purchased so that invoices and receiving
    reports can be validated. Miscellaneous payments require assurance that the
    items purchased are approved and received by the Air Force. A desktop guide
    should be developed to standardize support for payments within IAPS.


Recommendations, Management Comments, and Audit
Response
    Redirected and Renumbered Recommendations. Based on management
    comments received from the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) and the Deputy Director, Defense Finance and
    Accounting Service, we redirected Recommendation B.3.a. to the Under
    Secretary of Defense for Acquisition, Technology, and Logistics and
    renumbered Recommendation B.3.b. as B.4.a. and Recommendation B.3.c. as
    B.4.b.

    B.1. We recommend that the Under Secretary of Defense (Comptroller)
    amend DoD Regulation 7000.14-R, the “DoD Financial Management
    Regulation,” volume 10, to fully comply with the Prompt Payment Act;
    Final Rule and standardize the rules for making properly supported
    miscellaneous payments.

    Under Secretary of Defense (Comptroller) Comments. The Under Secretary
    of Defense (Comptroller) nonconcurred with the recommendation, stating that
                                   23
DoD Regulation 7000.14-R, volume 10, cannot be changed until 5 Code of
Federal Regulations Part 1315 is incorporated within the FAR. He also stated
that guidance on miscellaneous payments will be assessed to ensure that it
provides sufficient detail regarding the documentation required to make such
payments.

Audit Response. Despite the nonconcurrence, comments from the Under
Secretary of Defense (Comptroller) are responsive. The appropriate sequencing
of the recommended action was never an issue. We recognize that DoD
Regulation 7000.14-R, volume 10, cannot be changed until the FAR is revised.
However, we urge the Office of the Under Secretary of Defense (Comptroller)
to prepare now to avoid undue delay when amending DoD Regulation
7000.14-R, volume 10, to comply with the requirements reflected in the Prompt
Payment Act; Final Rule. Likewise, the guidance for making miscellaneous
payments should be reviewed and the necessary changes identified and made.

B.2. We recommend that the Director, Defense Finance and Accounting
Service Denver Center:

       a. Rescind DFAS-DE 7010.2-R, “Commercial Transactions at Base
Level,” and develop a desktop guide to facilitate compliance with DoD
Regulation 7000.14-R, volume 10.

DFAS Comments. DFAS partially concurred with the recommendation, stating
that the regulation will remain in place until the DoD Regulation 7000.14-R,
volume 10, is changed to incorporate the required FAR revisions. DFAS also
stated that the DFAS Denver Center issued a standard vendor pay guide to
facilitate compliance with the DoD guidance.

Audit Response. The DFAS comments are partially responsive. Multiple
levels of guidance have caused significant confusion and problems for vendor
payment clerks in processing payments. DFAS-DE 7010.2-R should be
rescinded as soon as possible. The desktop guide should be useful in facilitating
compliance with the DoD guidance. We request that DFAS in its response to
the final report, state when DFAS-DE 7010.2-R will be rescinded.

        b. Return all invoices to vendors and receiving reports to activities
that do not meet requirements for payment.

DFAS Comments. DFAS concurred and stated that the new Standard Vendor
Pay Guide, developed in April 2000, gives procedures for identifying and
returning improper invoices and receiving reports for correction.

Audit Response. The DFAS comments are responsive. We have not yet
assessed the new payment guide to determine whether established procedures are
consistent with the FAR and the requirements of 5 Code of Federal Regulations
Part 1315.




                                 24
       c. Develop stringent procedures for accepting invoice receipt dates.
Procedures should ensure that the payment office can determine whether the
designated billing office date-stamped an invoice.

DFAS Comments. DFAS concurred in principle with the recommendation,
stating that additional requirements for date-stamping invoices must be made
within the FAR.

Audit Response. The DFAS comments are partially responsive. The FAR
requires that the designated billing office immediately date-stamp all invoices
upon receipt. Before making payment, DFAS must verify that the date stamp
placed on an invoice was actually placed on the invoice by the designated billing
office specified in the contract. The designated billing office should use a date
stamp that identifies the organization or annotate that information on the
invoice. Otherwise, DFAS should use the invoice date to determine the
payment due date. We request that DFAS provide additional comments on the
final report, explaining how DFAS will ensure that proper invoice receipt dates
will be used for making payments.

B.3. We recommend that the Under Secretary of Defense (Acquisition,
Technology, and Logistics), in coordination with the Director, Defense
Finance and Accounting Service Denver Center, and the Assistant Secretary
of the Air Force (Financial Management and Comptroller), change the
forms used as receiving reports to add the blocks necessary for receiving
activities to comply with the Federal Acquisition Regulation.

Air Force Comments. The Air Force partially concurred with the
recommendation. The Air Force stated that most inspection and receiving forms
are not under its control. However, the Air Force indicated that DD Form 250,
“Material Inspection and Receiving Report,” is being changed to make the form
conform to the FAR. The Air Force stated that it will assess and consider a
local format, which provides blocks for annotating receipt and acceptance, as
well as identifying the telephone number, address, title, and printed name of the
individual receiving and accepting the goods and services. The Air Force also
stated that work continues on an automated solution, the Wide Area Workflow
system.

DFAS Comments. DFAS concurred in principle with the recommendation,
stating that the recommendation should be addressed to the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics. DFAS said it
would coordinate with that office in ensuring that recommended improvements
are made.

Audit Response. We redirected the recommendation based on comments from
the Air Force and DFAS. We agree that the development of an automated
solution is desirable. However, the Wide Area Workflow system is not a
near-term solution. DFAS and the Air Force must continue to find ways to
make it easier for ensuring that complete and accurate information is included in
receiving reports. The use of a locally developed format that contains blocks
for all required information should be aggressively pursued. DFAS and the

                                  25
Air Force should work with the Under Secretary of Defense for Acquisition,
Technology, and Logistics to solve the problems with receiving reports until the
automated solution can be implemented.

B.4. We recommend that the Director, Defense Finance and Accounting
Service Denver Center, in conjunction with the Assistant Secretary of the
Air Force (Financial Management and Comptroller):

       a. Work with the Air Force contracting community to ensure that all
contracting documents provide the information needed to make proper
payments, including:

         (1) detailed identification of goods and services by contract line
item number,

           (2) clearly identified invoicing requirement,

         (3) accurate Data Universal Numbering System numbers and
Contractor Activity Government Entity codes, and

           (4) directions to avoid sending invoices directly to installations
unless the invoices require certification.

Air Force Comments. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) partially concurred, stating that the Air Force
financial management community will work with the contracting community to
ensure that all contracting documents provide the information needed to make
payments. The Air Force stated that field activities would be reminded to
structure contract line item numbers to provide enough detail to assist in
tracking deliveries and payments. The Air Force also stated that actions will be
taken to ensure that invoicing requirements comply with the guidance
established in the FAR, to clean up base-level vendor files at 113 activities to
ensure the accuracy of DUNS numbers and CAGE codes, and to work with
DFAS to include data in contractual documents, if necessary. However, the
Air Force stated that the Office of the Secretary of Defense made a decision not
to require the DUNS numbers in contractual documents and invoices because
they are part of the CCR database. The Air Force further stated that it will
work with DFAS to assess the inclusion of DUNS numbers in Air Force
contracts issued by the Standard Procurement System and to assess whether it
can effectively address DUNS numbers in legacy systems. Field activities will
also be directed to send all invoices, except those requiring certification, directly
to the paying office.

DFAS Comments. DFAS concurred in principle with the recommendations,
stating that it will coordinate with the Air Force on recommended
improvements.

Audit Response. The Air Force and DFAS comments were generally
responsive to the recommendation. Use of DUNS numbers and CAGE codes



                                   26
are the primary method used by DFAS to verify EFT data. The Air Force and
DFAS need to take steps to ensure that either a DUNS number or CAGE code is
provided with every contract issued.

       b. Develop clear guidance on the use of Miscellaneous Obligation
and Reimbursement Documents to ensure that they are used only when
necessary.

Air Force Comments. The Air Force did not comment on this recommendation
in the draft report. Therefore, we request that the Air Force provide comments
on the final report.

DFAS Comments. DFAS concurred in principle with the recommendation,
stating that DFAS-DE 7010.2-R provides guidance on the proper use and
preparation of Miscellaneous Obligation and Reimbursement Documents.
DFAS stated that it will work with the Air Force to ensure compliance with the
guidance.

Audit Response. The DFAS comments are partially responsive. The guidance
in DFAS-DE 7010.2-R was not sufficient. Further, since Recommendation
B.2.a. directs that DFAS-DE 7010.2-R be rescinded, DFAS and the Air Force
must disseminate guidance on the proper use of Miscellaneous Obligation and
Reimbursement Documents. We request that DFAS provide additional
comments in response to the final report. We also request that the Air Force
provide comments on this recommendation in response to the final report.




                                 27
           C. Management Control Structure
           The DFAS Denver Center developed a standard business practice that
           improved segregation of duties and strengthened control of documents
           used to support vendor payments. However, controls were not sufficient
           to ensure that payments were properly supported or documents were
           controlled. Problems existed because:

               •   effective control and reviews of incoming documents had not
                   been achieved,

               • payment clerks did not always validate supporting documents
                 before entering them into IAPS,

               • certification officials did not detect improperly supported
                 payments,

               •   high turnover among vendor payment personnel reduced
                   experience levels at the OPLOCs, and

                • internal assessments did not effectively analyze problems or
                  ensure the implementation of proper corrective actions.

           As a result, the DFAS Denver Center could not ensure that improperly
           supported and erroneous payments would be detected and corrected
           before payment.


Development of Standard Business Practice
    Reviews of vendor payment operations by the GAO and the Air Force Audit
    Agency in 1998 identified material management control weaknesses. To address
    these control problems, the DFAS Denver Center developed a management
    control structure at the vendor payment offices that segregated vendor payment
    duties and improved document control within the OPLOCs. These changes
    were necessary because most payments were made in a paper environment that
    required extensive controls. The new structure improved mailroom operations,
    established a document control section, and divided payment teams into
    task-related branches responsible for entering specific data or processing
    specific functions in IAPS. See Appendix F for a detailed explanation of each
    section in this structure. The DFAS Denver Center flowcharted the vendor
    payment process to identify key internal controls and developed extensive
    operational reviews to oversee the payment process. Systematic controls were
    developed in IAPS to support the new structure (see Finding A). DFAS Denver
    Center managers also directed monthly voucher reviews and implemented a
    management tool for detecting potential duplicate payments to better oversee the
    payment process.




                                     28
Positive Control Over Incoming Documentation. The DFAS Denver Center
needed to fully establish document control. Document control was most
important starting from a document’s receipt in the mailroom until its entry into
IAPS. Before vendor payment documents were entered into IAPS, the OPLOCs
had limited control, and on some occasions documents were misrouted or lost
within the OPLOC. The OPLOCs were also inconsistent in receiving,
date-stamping, and routing documents within their vendor payment operations
sections. To correct these problems, the structure established new mailroom
procedures and created a document control section for vendor payment
operations.

        Mailroom Operations. OPLOCs did not always properly implement the
mailroom portion of document control, as directed by the DFAS Denver Center.
Appendix F outlines the mailroom requirements. Reviews at eight OPLOCs
showed that the mailrooms received and date-stamped incoming documents, but
did not maintain positive control over the documents until document control
technicians could pick them up. At OPLOC Europe, the mailroom operations
were not in a secure location. At the other OPLOCs, the date-stamped mail was
placed in unsecured bins or locations for pickup. This allowed anyone to add,
alter, or remove documents before they were properly entered in IAPS. At
these locations, we were able to remove and copy documents without detection.
At four of the eight OPLOCs reviewed, incoming facsimiles, including invoices
and receiving reports, were not controlled in the mailroom. Instead, incoming
facsimiles were received from machines located in the vendor payment offices.
This bypassed the new document control structure and could result in incorrect
date-stamping of documents used to support vendor payments and increased risk
of lost documentation. Documents date-stamped by several mailrooms did not
clearly identify the OPLOC as the location of stamping; in some cases, the
date-stamp was changed before daily mailroom processing was completed. This
violated the intent of date-stamping documents on the date received and
identifying the location that received the documentation. The DFAS Denver
Center needs to enforce a standard business practice that maintains positive
control over all incoming documents, using a secured mailroom as the entry
point for these documents. All documents should be date-stamped on the
business day they are received in the OPLOC.

        Document Control Section. Although the document control section had
improved the flow of documents within the OPLOCs, they did not have positive
control over vendor payment documents to prevent missing and lost
documentation and detect improper invoices and receiving reports. The
effectiveness of this section depends on how well its employees track, screen,
and control documents within an OPLOC from receipt until the documents are
matched to a voucher for payment.

               Tracking Documents. A major problem was the inability to
properly track documents sent from the document control section to the accounts
payable teams for entry into IAPS. The DFAS Denver Center had not
developed a standard method of tracking all incoming documents until the
documents were entered into IAPS and paid or returned to the originator for
correction. OPLOCs had attempted to implement these controls, but the efforts

                                 29
were incomplete and inconsistent. For example, the San Antonio OPLOC was
testing a bar-coding process that tracked contact folders within the OPLOC.
Although this process allowed visibility over the contract files, the bar coding
did not track individual invoices and receiving reports. Limitations of the
software may prevent bar coding from effectively controlling all vendor
payment documents. To test controls over documents, we obtained 10 invoices
at each OPLOC and traced them through the process. At the San Bernardino
OPLOC, San Bernardino, California, we were able to locate all the documents
entered into IAPS, the documents were either at a clerk’s desk or had been
returned to the vendor within 48 hours. At two OPLOCs, an invoice that was
received in the OPLOC mailroom was lost before it could be entered into IAPS.
To locate documents at several other sites, document control employees had to
search the OPLOC for documents that had not been entered into IAPS within 48
hours of receipt. The Denver OPLOC developed a document control program
that tracked the status of invoices and receiving reports received in the document
control section and sent to the vendor payment section for processing. Although
entering the documents was time-consuming, it provided document control at the
OPLOC. DFAS Denver Center should implement this process at all OPLOCs
until a more automated process is available for use.

                Screening Documents. The OPLOCs had not developed an
effective and efficient means of identifying improper invoices and receiving
reports. Our review at the OPLOCs showed that employees were conducting
cursory reviews and did not check incoming invoices and receiving reports for
all the required information. Further, detailed screenings were not always
performed by document control employees, but were performed several days
later by the accounts payable technicians. Reviews in the document control
section consisted of determining whether a document was an invoice or
receiving report; contained a contract number and amount; and was not a billing
statement, credit card payment, or credit invoice. As discussed in Finding B,
invoices and receiving reports that did not meet the standards of the PPA or
other guidance needed to be returned within 7 days. To be effective, the
document control section must be staffed with experienced clerks who can
determine whether all incoming documents are proper and return them to the
required activity when necessary. Because documents were not screened
completely, the potential existed that payments would be delayed and accrue
interest when errors were discovered later in the payment process by payment or
certification clerks. The DFAS Denver Center should establish a document
control section at each OPLOC that makes vendor payments using IAPS. The
document control section should be staffed with experienced employees who can
determine whether payment documentation is proper and ensure that documents
are received in time to properly support payments.

               Controlling Documents. Documents were not properly
maintained in the payment folders. During our visits to eight document control
sections, we noticed large numbers of payment documents that were loosely
maintained in payment folders or not properly matched to folders. This caused
documents to become detached from the payment folders and be lost before a
payment could be made, resulting in the need to obtain duplicate documentation



                                  30
in order to make payments. OPLOC managers must develop procedures to
ensure that when documents are received and processed in IAPS, they are
properly secured within the payment folder until the payments are made.

Payment Processing. The other major change in the new vendor payment
structure was the segregation of data entry to prevent a single employee from
entering all payment information. The DFAS Denver Center implemented a
system change that limited individual access for entering data into IAPS, as
described in Finding A. This change also required the OPLOCs to assign the
remaining vendor payment employees to perform data entry for specific items.
Under the new structure, different clerks were required to enter obligation data
(obligation section), enter invoices and receiving reports (accounts payable
section), and add or correct the EFT and remittance information (reports and
reconciliation section). An additional clerk from the certification section was
required to certify the voucher payment. However, the clerks did not have the
capability to change any data within IAPS. A detailed description of the
functions of each section can be found in Appendix F.

        Obligation Section. Reviews at various OPLOCs showed that the
obligation section did not always ensure that all line items in the contract and
other information they received interfaced correctly with IAPS. For example,
an invoice was scheduled for payment that should have included accrued
interest, but did not. Review of this obligation record in IAPS showed that the
obligation section either did not validate the contract interface with IAPS
correctly, or the prompt payment indicator was incorrectly changed by the
obligation section to exempt the payment from earning interest. In another case,
for a contract containing multiple line items, only one line item was entered into
IAPS. This made it difficult for vendor payment clerks to validate invoices and
receiving reports during entry. The obligation section also did not always
screen miscellaneous documents to ensure that they were being used for the
correct purpose and contained all the information necessary to identify what was
being purchased.

        Accounts Payable Section. The vendor payment team validated
invoices and receiving reports against the contract and each other and, if valid,
entered pertinent data into IAPS for payment. If inconsistencies in the contract
were found, the team prepared a letter identifying the problem that prevented
payment and returned the document to its originator. Managers informed us
that documents were lost before they were entered into IAPS and also between
the time they were entered into IAPS and the time they were sent to the
certification section for payment. Observations in several OPLOCs showed that
many loose documents and payment folders were being maintained at clerks’
desks and not returned to the document control section after documents had been
entered into IAPS. A reasonableness standard needs to be established for the
time needed to enter an invoice or receiving report into IAPS after it is received
at an OPLOC. A similar standard should apply to the amount of time a payment
folder is held by payment clerks. OPLOC managers needed to establish these
measurable standards to ensure that documents were being entered promptly and
folders were being returned to the document control section to decrease the
potential for lost documents.

                                  31
        Observation of the invoice and receipt entry process showed that clerks
did not verify all necessary items before entering an invoice or receiving report
for payment. Clerks seldom questioned discrepancies in payment documents or
validated the items on invoices and receiving reports with the requirements on
the corresponding contract and with other documents. Payment clerks seldom
questioned handwritten alterations to payment documents. They accepted these
altered documents without determining who made the alterations and why.
Clerks who entered invoices into the system did not always verify that the line
items billed on an invoice matched the contract. For instance, at the Dayton
OPLOC, one clerk did not look at the contract while processing an invoice into
the system; the clerk made sure that enough money was in the system to pay the
invoice. He stated that he checked the contract only if there was a conflict or
apparent errors. Finding B discussed inconsistencies in invoices that did not
match the contracts. These problems occurred because clerks processed invoices
without closely reviewing contract documents. In addition, clerks did not
always ensure that vendors were paid using EFT or that the information in the
CEFT database was current. At the Denver OPLOC, two valid payments to the
same vendor used separate obligation documents and were paid by both EFT
and check. This occurred because payment clerks had not checked the CEFT to
determine whether the vendor was registered in CCR and should have received
an EFT payment.

        Reports and Reconciliation. One of the functions of this section is to
accomplish changes to remittance addresses and EFT information in IAPS. The
section also performs report and analysis functions within the OPLOC. (A
detailed explanation of the functions is in Appendix F.) During our reviews of
the OPLOCs, we determined that current procedures for a remittance address
change subjects the Government to making improper payments. Checks should
be remitted only to the address that was identified in the contract and verified in
the CCR. A change to a remittance address should not be based on an invoice
unless it is validated with the vendor and the contracting office. For example,
an invoice was received at the Denver OPLOC for payment on a contract, and a
new remittance address was shown on the invoice. The OPLOC originally
voided the payment because the remittance address did not match the contract.
The voided payment was sent to the reports and reconciliation section, which
changed the remittance address to the address on the invoice, and the payment
was made. Research showed that the payment was sent to a company that had
purchased the company shown on the contract; however, no contract
modification had occurred, and the payment should not have been sent to the
new remittance address. In addition, the new company was not registered in
CCR; therefore, the OPLOC could not validate that the remittance address on
the invoice was valid. DFAS should implement procedures to ensure that
remittance addresses can only be changed based on information in the CCR.

Obtaining Proper Receiving Reports. A major reason for interest payments
was the inability of OPLOCs to obtain receiving reports from installations.
During our visit to the eight OPLOCs, we reviewed the process for obtaining
receiving reports. Observations of the process showed inconsistencies in the
effort the OPLOCs and their installations made to obtain missing receiving
reports for invoices on IAPS Report, “TQ-79 Invoices not Scheduled for
Payment.” A review of 10 invoices judgmentally selected from each OPLOC

                                  32
report showed that Air Force activities did not always submit receiving reports
to OPLOCs in a timely manner, or failed to comply with the requirement for
prompt payment. The following problems were found.

       •   Contractors often partially shipped the items contracted for from
           various warehouses and invoiced each shipment separately.
           Contractors also shipped partial orders based on when the contract
           line items were available for shipment. When partial shipments
           arrived, the receiving activities were required to submit receiving
           reports unless the contract specified that partial shipment or partial
           payment were not authorized. The review showed instances where
           activities withheld receiving reports until they received all contract
           line items and submitted a single receiving report for the multiple
           invoices. By withholding a receiving report until the full contract is
           shipped and submitting one receiving report with a single receipt
           date, the activity circumvents the prompt payment process. This
           procedure may deny the contractor prompt payment on invoices for
           earlier shipments, or may deny the contractor proper interest
           payments for late payment on earlier shipments.

       •   Receivers used the date they signed the receiving report as the date of
           receipt of goods and services, although goods were received several
           months earlier. For example, the 65th Contracting Squadron,
           McGuire Air Force Base, New Jersey, was asked for a receiving
           report for eight invoices received between September and November
           1999. The activity faxed a receiving report to the OPLOC, showing
           the receipt of goods on January 24, 2000. The contract showed an
           expected delivery date of November 30, 1999. When questioned, the
           receiving activity submitted a corrected receiving report with a valid
           receipt date of November 23, 1999. By submitting the original
           receiving report, the activity would have deprived the vendor of
           more than $60 in interest.

       •   When OPLOC personnel contacted receivers to obtain receiving
           reports, the contacts were often ignored. For instance, a
           San Bernardino OPLOC technician telephoned an activity to request a
           receiving report on an invoice that was more than 30 days old. The
           individual told the OPLOC technician that the goods had not been
           received. When we made a followup call, the individual provided
           the receiving report for payment.

       •   Discussions with FSO personnel showed that no extensive followup
           was conducted to obtain receiving documents from activities. At
           Offutt Air Force Base, Nebraska, the “Requests for Receiving
           Reports” generated by IAPS were sent to the FSO, but the FSO did
           not follow up to determine whether the activity submitted a report.




                                  33
       •   The IAPS Report was not user-friendly because it was difficult for
           installations to determine which invoices needed action. The report
           should clearly identify the invoices that installations need to resolve
           to prevent interest payments.

Several of the situations noted above resulted in the untimely payment of
vendors or deprived vendors of required interest payments. DFAS and
Air Force financial managers need to work together to ensure that the receipt of
goods and services is recorded accurately as part of the payment process.
Resolving unpaid invoices should be a joint effort that is monitored closely to
prevent potential problems with prompt payment. The San Bernardino OPLOC
had developed a process in its document control section that assisted the FSOs in
obtaining receiving reports. They also followed up with the FSOs to ensure that
invoices were paid properly. This process should be reviewed by management
and implemented throughout the IAPS network.

        Certification Section. At the eight OPLOCs we visited, personnel in
the certification section did not always closely review the documents supporting
vendor payments to ensure that they were proper. A reasonableness test of
receipt and acceptance should be developed. Most contracts provided an
expected delivery date, and clerks needed to question whether receiving reports
should be entered into IAPS with dates well after a reasonable delivery date.
For example, OPLOC Limestone, Limestone, Maine, received 30 unpaid
invoices valued at more than $2 million on a contract for computers that were
shipped and delivered to various Air Combat Command bases in November
1999. When the contracting office at Langley Air Force Base, Virginia, was
contacted on January 24, 2000, the contracting officer informed us that the user
did not know a receiving report was needed. The user contacted the
30 activities to ensure that the shipments were received and provided a receiving
report which stated that all goods were received on February 11, 2000. The
receiving report should have provided exact receipt and acceptance dates at each
location for entry into IAPS, not a single date for the entire contract. This
practice deprived the vendor of almost $18,000 in interest penalties required by
the PPA.

        Certification clerks also did not always check CEFT information to
ensure that payments were sent to the correct location. Although certification
officials identified errors in the payment processes, as shown by the significant
number of voided vouchers, errors were not being corrected before payments
were made. For example, the Denver OPLOC received invoices from a health
club that was not the vendor identified in the contract. The invoices were also
for annual fees instead of a monthly fee, as required by the contract. Instead of
returning the invoices to the vendor or correcting the problems, the OPLOC
adjusted the remittance address and certified and paid the invoices. Further
review showed that a contract modification was required, and no payments
should have been made until the contract modification was received.

Summary of the Management Control Structure. The DFAS Denver Center
improved the segregation of duties by establishing a new vendor payment
structure and limiting access to IAPS. However, additional actions are needed
to ensure that documents in the OPLOC are properly controlled, information in

                                  34
     IAPS is correct and properly supported, and vendors are paid promptly.
     Continued emphasis needs to be placed on assuring that supporting documents
     comply with all requirements. If proper invoices, receiving reports, and
     obligation documents have not been received, the documents need to be
     promptly returned to originators and proper documentation requested. The
     document control section should be responsible for initiating these actions so
     that vendor payments are not delayed unnecessarily. The document control
     section should also follow up when receiving reports are missing. Pay
     technicians should ensure the reasonableness of dates on receiving reports when
     significant differences exist between the expected delivery dates and the dates of
     receipt and acceptance. The certification section must ensure that all payments
     are accurate, proper, and legal. To maintain proper segregation, DFAS should
     ensure that no single individual can enter or direct the entry of all data needed to
     make payments. Therefore, key data entry points should remain under the
     direct supervision of separate individuals. Until electronic media are fully
     implemented, DFAS should improve controls over supporting documents by
     tracking the location of all documents that support vendor payments until the
     payments are made.


Staffing
     Ensuring that vendor payments are properly made depends on high-quality,
     trained staff. A major concern expressed by OPLOC managers was the frequent
     loss of experienced vendor payment clerks because of the low grade structure.
     Most OPLOCs were staffed with employees at the GS-3 to GS-6 grade level.
     One OPLOC director stated that turnover within vendor pay was 35 percent
     annually. Under the current structure, very few opportunities for advancement
     to mid-level positions (GS-7 to GS-11) existed within vendor payment
     operations. This lack of promotion potential has resulted in the constant
     turnover of the work force. The Director, DFAS Denver Center, stated that
     implementation of the existing control structure had increased costs by about
     15 percent. The document control section should have enough knowledgeable
     personnel to ensure that documents supporting payments are analyzed early in
     the process to minimize late payments. DFAS should continually reevaluate the
     staffing requirements and levels of experience needed to perform duties using a
     standard business practice for making proper vendor payments and maintaining
     control over paper documents, as the process is moved to electronic media.


Management Oversight
     The DFAS Denver Center had developed management tools for evaluating
     whether proper payments were being made from their payment offices.
     Problems with supporting vendor payments were consistently reported since
     January 1999 by DFAS Denver Center teams that performed operational
     reviews at the OPLOCs and by performance assessment personnel at the
     OPLOC. Despite considerable management attention, vendor pay operations
     had not significantly improved. The lack of significant progress in correcting

                                        35
    and preventing problems in vendor payments was attributable to insufficient
    followup. The DFAS Denver Center needed to further analyze the management
    tools to properly identify root causes and implement needed corrective actions.

    Voucher Review. In December 1998, the DFAS Denver Center required
    monthly reviews of payment vouchers by OPLOCs. The purpose of these
    reviews was to determine whether the payments were supported properly and
    identified problem areas. We examined the implementation of these reviews at
    each OPLOC we visited. The lack of standard checklists prevented reviews
    from being implemented effectively. Each OPLOC used a different standard to
    evaluate the propriety of payments. The lack of consistent reviews made
    comparison of data impractical. Further, the causes of errors were not analyzed
    and trends were not evaluated for corrective actions. A standard review guide
    should be developed and used so that consistent results can be reported to DFAS
    Denver Center to develop the corrective actions necessary to make properly
    supported payments.

    Predator Application. Between October 1, 1999, and January 31, 2000,
    $4 million in duplicate or erroneous payments was identified and prevented.
    DFAS Denver Center personnel developed and implemented a computer
    application, Predator, that reviews all scheduled vendor payments for potential
    duplication. The program identifies potential duplicate or erroneous payments
    that require immediate research. If these payments are determined to be
    improper, they are voided from the system before a check or EFT payment is
    sent to a vendor. By preventing these payments, the DFAS Denver Center
    reduces the amount of time an OPLOC must spend researching and collecting
    improper payments from vendors, and reduces the number of checks returned by
    vendors. Further benefits can be achieved if the root causes of the potential
    duplicate payments are identified and analyzed by OPLOC personnel and
    monitored by the DFAS Denver Center. Although some OPLOCs had begun
    identifying and analyzing the causes, an overall program for management review
    and analysis of corrective actions had not been established.


Assessment of Management Controls Over Vendor Payments
    The DFAS Denver Center took numerous actions to improve controls over
    vendor payments in response to the material weaknesses in management controls
    identified in reviews performed in 1997 and 1998 at the request of Senator
    Grassley, and in 1998 and 1999 by the Air Force Audit Agency. However,
    controls were not sufficient to ensure proper vendor payments and full
    compliance with the PPA. The operational reviews completed by the DFAS
    Denver Center and the voucher reviews performed by OPLOC personnel since
    April 1999 continue to report problems in making vendor payments. We
    identified a material management control weakness in supporting vendor
    payments and in restricting IAPS access.

    The DFAS Denver Center officials reported vendor payment deficiencies as a
    material management control weakness in its FY 1998 Annual Statement of
    Assurance and developed procedures to correct the deficiencies. The DFAS


                                     36
    Denver Center reported in its FY 1999 Annual Statement of Assurance that this
    material management control weakness had been corrected. We do not agree
    that the material management control weakness has been corrected. Until
    corrective actions are taken and the results of operational and voucher reviews
    confirm that the management control weakness has been corrected, the DFAS
    Denver Center should report the problems in supporting vendor payments and
    controlling IAPS access as a material management control weakness.


Recommendations, Management Comments, and Audit
Reponses
    Deleted and Renumbered Recommendations. Based on management
    comments, we deleted draft Recommendation C.2. Draft Recommendation C.1.
    has been renumbered as Recommendation C.

    C. We recommend that the Director, Defense Finance and Accounting
    Service Denver Center:

           1. Establish at each operating location that makes vendor payments
    using the Integrated Accounts Payable System:

                a. A secure mailroom that ensures the proper receipt and date
    stamping of all incoming vendor payment documents.

    DFAS Comments. DFAS concurred in principle with the recommendation,
    stating that the standard organizational structure for all DFAS Denver Center
    OPLOCs requires a secure mailroom that receives and date-stamps all vendor
    pay documents.

    Audit Response. The DFAS comments are partially responsive. Guidance was
    issued requiring a secure mailroom operation and positive control of documents;
    however, the DFAS Denver Center and DFAS Indianapolis Center OPLOCs did
    not fully comply with the requirements. Mail that was date-stamped was not
    positively controlled until it was entered into IAPS. At some OPLOCs, mail
    was left unsecured awaiting pickup by document control technicians, and
    facsimiles of vendor payment documents were received outside the mailroom.
    We request that DFAS provide additional explanation of planned corrective
    actions.

                 b. A document control section with an experienced staff
    capable of determining whether obligating documents, invoices, and
    receiving reports meet the requirements in 5 Code of Federal Regulations
    Part 1315, “Prompt Payment; Final Rule,” and the Federal Acquisition
    Regulation.




                                     37
DFAS Comments. DFAS concurred with the recommendation. In June and
July 2000, DFAS will test a new vendor pay organizational structure that
requires a reorganized document control section capable of determining whether
vendor pay documents are proper.

Audit Response. The DFAS comments are responsive. At the request of the
Director, DFAS Denver Center, we will assess the new vendor pay
organizational structure in July 2000.

             c. A mechanism for tracking invoices, receiving reports, and
obligating documents from receipt by the operating location to payment.

DFAS Comments. DFAS nonconcurred with the recommendation. DFAS
stated that IAPS provides a followup process for missing invoices, receiving
reports and contractual obligations interfaced into IAPS. DFAS stated that
additional control procedures would be time-consuming and add little value.

Audit Response. The DFAS comments are not responsive. The DFAS
comments do not take into account the number of documents that arrive in the
OPLOC and are lost or misplaced before they are entered into IAPS. The IAPS
followup reports depend entirely on the data in IAPS. Documents that have not
been entered into IAPS are not visable to OPLOC personnel. Vendors and
installation-level personnel considered lost and misplaced documents a major
issue. The DFAS Denver OPLOC had developed an effective means for
tracking documents that support vendor payments. We request that DFAS
reconsider its position on the recommendation and provide additional comments
on the final report.

       2. Develop procedures to ensure that when documents are received
and processed in the Integrated Accounts Payable System, they are properly
secured in payment folders until the payments are made.

DFAS Comments. DFAS concurred with the recommendation and stated that
the document control section will be responsible for the voucher assembly
process under the new vendor pay organizational structure.

Audit Response. The DFAS comments are partially responsive. The voucher
assembly process must ensure that all documents are properly secured in
payment folders. For this process to work as intended, all vendor payment
documents must be received in the mailroom. The procedures to be followed
during the voucher assembly process also needed to be documented. We will
assess the voucher assembly process during our evaluation of the new vendor
pay organizational structure.




                                 38
        3. Issue desk procedures that identify what constitutes proper
obligating documents, invoices, and receiving reports, and emphasize the
importance of promptly returning improper documents to the source and
entering only appropriate payment data.

DFAS Comments. DFAS concurred with the recommendation and stated that
on April 14, 2000, the DFAS Denver Center issued a new desktop guide for
processing vendor payments.

Audit Response. The DFAS comments are partially responsive. Our review of
the desktop guide showed that it significantly improved the guidance on making
vendor payments. However, the guide references DFAS-DE 7010.2-R as the
primary source of guidance for determining what constitutes a proper invoice
and receiving report. The primary source of guidance should be DoD
Regulation 7000.14-R, volume 10. In revising the guide, DFAS should also
take into account changes being developed to bring DoD Regulation 7000.14-R,
volume 10, into compliance with 5 Code of Federal Regulations Part 1315.

        4. Develop standard business practices for resolving invoices that
are not scheduled for payment and for obtaining missing documentation.

DFAS Comments. DFAS concurred with the recommendation and stated that a
standard report is used to track the status of invoices received that are not
scheduled for payment. DFAS is evaluating several tools for improving the
usefulness of the report to the Air Force. The best tool will be standardized for
use across the network.

Air Force Comments. The Air Force provided unsolicited comments on the
recommendation. The Air Force agreed that until the Wide Area Workflow
system is implemented, a standard is needed for resolving invoices not
scheduled for payment. The Air Force supported using a more useful version of
the DFAS Denver Center standard report. The Air Force will also direct that a
means be developed to track progress in providing receiving reports.

Audit Response. Because the Air Force said it will direct that a means be
developed to track progress in providing receiving reports, the DFAS
comments are responsive.

       5. Review the grade structure and staffing levels within vendor
payment offices to ensure that each section has individuals qualified to
perform assigned tasks.

DFAS Comments. DFAS concurred in principle with the recommendation.
DFAS stated that a change in grade structure would not ensure a quality
workforce. The use of advanced technology in systems applications and
electronic commerce was viewed as the preferred means to increase
productivity, reduce errors, and maintain internal controls.

Audit Response. DFAS comments are generally responsive.


                                 39
        6. Implement management tools to detect control weaknesses in the
payment process. When weaknesses are detected, develop corrective actions
to prevent future occurrences. The management tools should include:

             a. A standard review guide for accomplishing the 200-voucher
review that gives consistent, useful results for assessing improvements in
making vendor payments.

DFAS Comments. DFAS concurred with the recommendation. The DFAS
Denver Center will reissue guidance to clarify the guidance for performing and
assessing the results of the 200-voucher review.

Audit Response. The DFAS comments are generally responsive. DFAS
should analyze the results reported by all OPLOCs to identify the types of errors
that are occurring and, in conjunction with Air Force customers, develop
corrective actions to prevent the errors from reoccurring. Despite commendable
efforts by the OPLOCs to develop refresher training, the same types of errors
were reported. The reissued guidance should include a determination as to
whether vendor payments are supported by proper invoices and receiving
reports and should require the identification of root causes for problems.

           b. An analysis of the root causes of duplicate and erroneous
payments identified by the Predator application.

DFAS Comments. DFAS concurred with the recommendation and stated that a
detailed analysis was being conducted on each potentially duplicate payment.
Vendor pay personnel are required to determine the causes of erroneous
transactions and identify corrective actions. DFAS stated that compliance would
be validated through operational reviews.

        Audit Response. The DFAS comments are partially responsive. The
Predator application provides DFAS with an excellent tool for identifying
potential duplicate payments. However, at the time of the audit, the causes of
the duplicate payments were not always identified and shared with other DFAS
OPLOCs that made vendor payments using IAPS. Generally, duplicate and
erroneous payments indicate that problems exist in the documentation supporting
the payments.




                                 40
       7. Report as a material management control weakness the ability of
individuals to gain unauthorized access to the Integrated Accounts Payable
System, the ability to remove invoices from the system without maintaining
audit trails, and problems in supporting vendor payments.

DFAS Comments. DFAS partially concurred with the recommendation.
DFAS concurred with reporting the ability of individuals to gain unauthorized
access to IAPS as a material weakness. The DFAS Denver Center submitted a
system change request to prevent individuals from gaining unauthorized access.
However, DFAS did not agree that removing invoices from IAPS and problems
in supporting vendor payments were material weaknesses. DFAS stated that the
DFAS Denver Center requires a log to be maintained for all improper invoices
and receiving reports that are returned. DFAS acknowledged that having IAPS
track invoices and receiving reports that are removed from IAPS was a desirable
improvement. The DFAS Denver Center will develop a system change request
to create a report that identifies invoices and receiving reports removed from
IAPS. DFAS stated that the issues in supporting vendor payments are
improving compliance and enforcement by DFAS and the Air Force.

Audit Response. The DFAS comments are partially responsive. We consider
as a material weakness a control environment that allows individuals to gain
unauthorized access to IAPS, remove invoices from IAPS, and make improperly
supported payments. The explicit Congressional interest in these problems is
also a factor to be considered in determining materiality for Management
Control Program reporting purposes. Until the control environment is
improved, the DFAS Denver Center should report vendor pay problems as a
material management control weaknesses. We request that DFAS reconsider its
position and provide additional comments on the final report.




                                 41
Appendix A. Audit Process

Scope
    Work Performed. We evaluated the controls associated with IAPS and its
    computation of vendor payments. We reviewed the procedures that the DFAS
    OPLOCs used to make vendor payments for Air Force customers. During
    FY 1999, 1.2 million vendor payments, valued at $16.5 billion, were made
    using IAPS. We reviewed a random sample of 240 of the 306,939 payments
    made from April 1 through June 30, 1999. We considered the organizational
    and system changes made by the DFAS Denver Center since September 1998.
    We also reviewed the effectiveness of the management control program as it
    related to Air Force vendor payments.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense establishes DoD-wide corporate-level goals, subordinate
    performance goals, and performance measures. This report pertains to
    achievement of the following goal, subordinate performance goal, and
    performance measures.

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the revolution in military affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)
           •   FY 2001 Performance Measure 2.5.3: Qualitative assessment of
               reforming information technology management. (01-DoD-2.5.3)

    DoD Functional Area Reform Goals. Most DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objectives and goals.

           •   Financial Management Area. Objective: Reengineer DoD
               business practices. Goal: Standardize, reduce, clarify, and reissue
               financial management policies. (FM-4.1)




                                     42
           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

           •   Information Technology Management Area. Objective: Ensure
               DoD vital information resources are secure and protected. Goal:
               Assess information assurance posture of DoD operational systems.
               (ITM-4.4)

    General Accounting Office High-Risk Area. GAO identified several high-risk
    areas in the DoD. This report provides coverage of the Defense Financial
    Management and Information Management and Technology high-risk areas.


Methodology
    To assess controls over access to IAPS, we reviewed system access lists,
    compared the access levels of employees to their job positions, observed system
    access by users, and discussed procedures for controlling and changing
    passwords with systems personnel.

    From data files obtained from the DFAS Denver Center, we randomly selected
    240 vendor payments made using IAPS from April 1 through June 30, 1999.
    Ten DFAS OPLOCs made vendor payments using IAPS. From October 1999
    through February 2000, we reviewed the support for the vendor payments at
    those OPLOCs to determine whether payments were properly authorized,
    approved, and supported. We reviewed operations at the DFAS Denver Center
    OPLOCs in Dayton; Denver; Limestone; Omaha, Nebraska; and San
    Bernardino. We also reviewed vendor payments and operations at the OPLOCs
    in Orlando and European OPLOCs. Both OPLOCs were assigned to the DFAS
    Indianapolis Center, Indianapolis, Indiana. We obtained assistance in reviewing
    support for vendor payments from the Air Force Audit Agency at the San
    Antonio OPLOC, San Antonio, Texas; Honolulu OPLOC, Honolulu, Hawaii;
    and the DFAS Japan OPLOC, Yokota Air Base, Japan. At the San Antonio
    OPLOC, the Air Force Audit Agency also reviewed the procedures and controls
    over vendor payment operations.

    At the paying offices in the 10 OPLOCs, we reviewed obligation documents,
    invoices, receiving reports, and payment vouchers. We compared payment
    vouchers to source documents to determine whether payments were properly
    supported, were for the correct amount, were forwarded to the correct vendor
    and address, cited proper appropriation data, used the correct invoice date, and
    were properly certified. We also reviewed guidance for making vendor
    payments and compared the guidance issued by DFAS and the DFAS Denver
    Center with guidance in OMB Circular No. A-125, “Prompt Payment,”
    December 12, 1989; 5 Code of Federal Regulations Part 1315, “Prompt
    Payment; Final Rule,” September 29, 1999; the Federal Acquisition Regulation;
    and DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
    volume 10, “Contract Payment Policy and Procedures,” November 1999. We
    contacted and visited receiving activities to determine whether they received the
                                     43
    goods and services for which payments had been made. We also contacted
    vendors to determine the status of invoices and whether payments had been
    received.

    We assessed improvements in vendor payment operations by assessing the
    guidance issued and the actions taken by the DFAS Denver Center, the
    OPLOCs, and the Air Force in response to prior reviews and audit reports. We
    held discussions with key DFAS Denver Center personnel and Air Force
    financial managers. We also determined the actions taken to resolve older
    unpaid invoices by judgmentally selecting 10 invoices from listings of unpaid
    invoices at 8 OPLOCs. We determined the status of the invoices, identified
    problems that delayed the payment of the invoices, and for those invoices that
    were paid as of the date of our visit, we reviewed documents supporting the
    payments.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from IAPS, we did not evaluate the adequacy of the system’s general and
    application controls. Air Force Audit Agency Report No. 96054010, “General
    and Application Controls Within the Integrated Accounts Payable System,”
    August 1, 1996, states that IAPS controls generally ensured adequate support
    for transactions, effective use of system edits, and proper control over software
    maintenance. However, IAPS did not meet Federal financial management
    system requirements for transaction-driven, double-entry accounting, and DFAS
    personnel did not control access to the system. We established data reliability
    by comparing data output to source documents. Our tests disclosed that the data
    were sufficiently reliable to support the audit conclusions and recommendations.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from July 1999 through April 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over vendor payments made using IAPS.
    Specifically, we reviewed management controls over vendor payments at the
    DFAS Denver Center and its OPLOCs, as well as at two DFAS Indianapolis
    Center OPLOCs. We also reviewed management’s self-evaluation of those
    controls.


                                     44
Adequacy of Management Controls. We identified a material management
control weakness as defined by DoD Instruction 5010.40, “Management Control
Program Procedures,” August 28, 1996. The DFAS controls over IAPS and the
processing of vendor payments were not adequate to ensure that all payments
were properly supported and valid. Recommendations A.1., A.2., A.3., B.1.,
B.2., B.3., B.4., and C.1 through 6, if implemented, will improve controls over
vendor payments. A copy of the report will be provided to the senior official in
charge of management controls in DFAS.

Adequacy of Management’s Self-Evaluation. The DFAS Denver Center
identified vendor payments as an assessable unit and, in our opinion, correctly
identified the risk associated with vendor payments as high. DFAS Denver
Center officials reported vendor payment deficiencies as an overall material
management control weakness in the FY 1998 Annual Statement of Assurance
and developed procedures to correct the weakness. Although the actions taken
by the DFAS Denver Center improved management controls, controls were not
sufficient to ensure proper vendor payments and full compliance with the PPA.
The DFAS Denver Center reported in its FY 1999 Annual Statement of
Assurance that the previously reported material management control weakness
in the vendor pay area had been corrected. We disagree with the FY 1999
Annual Statement of Assurance. The material management control weakness
identified in the FY 1999 Annual Statement of Assurance is the same problem
identified in this report. Recommendation C.7. is also needed to ensure full
disclosure of material control weaknesses in this area.




                                 45
Appendix B. Summary of Prior Coverage
     During the last 5 years, GAO; the Inspector General, DoD; and the Air Force
     Audit Agency have issued several audit reports discussing issues related to
     vendor payments.


General Accounting Office
     Report No. GAO/AIMD-00-10 (OSD Case No. 1919), “Increased Attention
     Needed to Prevent Billions in Improper Payments,” October 29, 1999.

     Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvements Needed
     in Air Force Vendor Payment Systems and Controls,” September 28, 1998.

     Report No. GAO/OSI-98-15 (OSD Case No. 1687-A), “Fraud by an Air Force
     Contracting Official,” September 23, 1998.


Inspector General, DoD
     Report No. 99-233, “General Controls for the General Accounting and Finance
     Systems,” August 17, 1999.

     Report No. 96-030, “Vendor Payments at Defense Accounting Offices,”
     November 30, 1995.


Air Force
     Report No. 98054032, “Internal Controls Over Purchases of Goods and
     Services,” February 23, 2000.

     Report No. 96054010, “General and Application Controls Within the Integrated
     Accounts Payable System,” August 1, 1996.

     Report No. 95064012, “Internal Controls Over the Payment Authorization
     Process for Installation-Level Supplies and Service Contracts,” August 30,
     1995.




                                      46
Appendix C. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to estimate
    the number of vendor payments that did not have proper documentation by type
    of payment and type of document. The statistical sampling plan was also used
    to estimate the number of invalid payments, once it was determined that a
    payment was not properly supported. The payments were reviewed to
    determine whether documentation was adequate and complied with the Prompt
    Payment Act.

    Universe Represented. The DFAS Denver Center provided a database of
    vendor payments made using IAPS from April 1 through June 30, 1999. The
    file contained records on 306,939 vendor payments. The total dollar value of
    the vendor payments in the population was unknown because some of the
    OPLOCs made payments in currencies other than U.S. dollars.

    Sampling Design. The sampling design used to determine whether or not the
    vendor payments had proper documentation was a stratified attribute design.
    We divided the population into three strata: payments valued at less than
    $1,000, payments valued at least $1,000 but less than $1 million, and payments
    valued at $1 million or more. In payments where the U.S. dollar value of
    foreign currency could be determined, the payment was placed in the
    appropriate strata. In payments where the U.S. dollar value of foreign currency
    could not be determined, it was left in the stratum it was assigned to based on
    the dollar value of the foreign currency. We randomly selected a total of 240
    payments: 100 from the first stratum, 80 from the second stratum, and 60 from
    the third stratum.


Sampling Results
    Sample Results. Table C-1 identifies the statistical estimates of vendor
    payments that were not properly supported by type of payment.

                  Table C-1. Payments Not Properly Supported
                         (99-Percent Confidence Level)

     Type of           Lower Bound          Point Estimate       Upper Bound
     Payment

    Contractual           53,338                79,009              104,631

   Miscellaneous          69,057                96,922              124,786

                                     47
We are 99-percent confident that from 53,338 to 104,631 contractual vendor
payments were not properly supported. Also, we are 99-percent confident that
from 569,057 to 124,786 miscellaneous vendor payments were not properly
supported.

Table C-2 identifies the statistical estimates of contractual vendor payments that
were not properly supported by document type.

             Table C-2. Contractual Payments Not Properly
                     Supported By Document Type
                     (99-Percent Confidence Level)

  Type of
 Document          Lower Bound           Point Estimate        Upper Bound

  Invoices            16,201                 35,590               54,978

 Receiving            47,157                 71,778               96,399
  Reports

 Contracts            (2,604)                 5,291               13,186

  Invalid              8,395                 25,017               41,638
 Payments


We are 99-percent confident that from 16,201 to 54,978 vendor payments were
not properly supported due to improper invoices. We are 99-percent confident
that from 47,157 to 96,399 vendor payments were not properly supported due to
improper receiving reports. Also, we are 99-percent confident that from 8,395
to 41,638 payments were not properly supported and should not have been made
to the vendors. The estimates of vendor payments that were not properly
supported by contract passes through zero; therefore, the estimate for contracts
is not considered significantly different than zero and will not be used in the
report.

Each of the individual estimates is projected at the 99-percent confidence level;
therefore, the group’s overall confidence level for all 5 estimates simultaneously
is approximately 95 percent.




                                  48
Appendix D. Integrated Accounts Payable
            System Access Levels
   Systems Change Request No. 136-98-00 was implemented in IAPS on August 4,
   1999. The system change aligned access levels to correspond with the DFAS
   Denver Center’s separation of responsibilities within vendor payment offices
   and establishment of additional levels of access for ANG personnel. The system
   change increased the number of access levels from 4 to 10. The following is a
   description of each access level.

   Inquiry Access (Level 05). This access level allows users to view a limited
   number of IAPS screens. Users cannot update data on any of the screens.

   Reserved Access (Level 06). This access level allows ANG users unrestricted
   access to IAPS. A clerk with this access can input commitments, obligations,
   vendor data, invoices, and receiving reports.

   Clerk I & R Access (Level 07). This access level allows users to enter
   information about invoices and receiving reports. Users can also view other
   screens, but cannot update them. Justification is required for users outside of
   the accounts payable section to have this access.

   Obligations Access (Level 08). This access level allows users to establish and
   change obligation information in IAPS. Users can also view other screens, but
   cannot update them. Only obligation section personnel at the OPLOCs should
   have this access.

   Clerk-FSO Access (Level 09). This access level allows users to set up
   commitments and input information on non-stock fund receiving reports. Only
   individuals at the FSO who regularly update IAPS should have this access.

   Clerk-Recon Access (Level 10). This access level allows users to change and
   add records to correct the IAPS database. However, users can view only the
   vendor and invoice screens. Only reports and reconciliation section personnel
   should have this access.

   Sub-Supervisor Access (Level 30). This access level allows users to change
   EFT and remittance information. Users have no access to information on
   obligations, invoices, and receiving reports. Only personnel in the reports and
   reconciliation section should have this access.

   Supervisor Access (Level 50). This access level gives users access to
   non-accounts payable functions. Users can update contract comments screens.




                                     49
Systems Admin Access (Level 63). This access level allows users to lock and
unlock technical identifications and passwords. This access level does not have
update access to account payable functions. Only system personnel should have
access.

VP Access (Level 70). This access level allows users to update access and
security records. Users cannot access the accounts payable functions. Only the
Chief of Vendor Payment Operations should have this access.




                                 50
Appendix E. Guidance on Supporting
            Documentation
   The principal guidance used for making payments to vendors was the PPA, as
   outlined in OMB Circular No. A-125, “Prompt Payment,” December 12, 1989.
   OMB Circular No. A-125 was rescinded and replaced by 5 Code of Federal
   Regulations Part 1315, “Prompt Payment; Final Rule,” on September 29, 1999.
   The supporting documentation requirements were further defined for DoD in
   FAR Subpart 32.9, “Prompt Payment, ”and DoD FAR Supplement
   Subpart 32.9, “Prompt Payment.” For DoD financial managers, the guidance
   was incorporated into DoD Regulation 7000.14-R, volume 10, “Contract
   Payment Policy and Procedures,” November 1999. The DFAS Denver Center
   issued further guidance in DFAS-DE 7010.2R, “Commercial Transactions at
   Base Level,” January 31, 1996, and “Vendor Pay Payment Processing Desktop
   Guide,” May 1999. These documents did not always agree on what must be
   included in a proper invoice, receiving report, and contract.

   Invoice Requirements. In most respects, the Federal Acquisition Regulation;
   DoD Regulation 7000.14-R, volume 10; and DFAS Denver Center guidance
   were in agreement with OMB Circular No. A-125. However, some information
   in DoD Regulation 7000.14-R, volume 10, and the DFAS Denver guidance
   conflicted with OMB guidance. Specifically:

          •   DoD Regulation 7000.14-R, volume 10, allows exceptions to the
              OMB requirements for a valid invoice. The Regulation states that it
              is not necessary for an invoice to be free of defects in order for it to
              be proper and create a valid demand on the Government; the
              approving activity determines whether a valid demand exists.

          •   The DFAS Denver Center guidance contains a section on acceptable
              alterations that reads, “Improper alterations include, but are not
              limited to, use of white out, taping, and cutting and pasting. A
              proper revision to a hard copy document is made by drawing a line
              (that does not obliterate the data) through the incorrect information,
              and adding the correct information.”

   Further, because the paragraph in DoD Regulation 7000.14-R, volume 10,
   allowed invoices that may not have been free of defects to be considered valid,
   and the DFAS Denver guidance allowed some alterations, several invoices in the
   sample were considered improper. For example, contract numbers were added
   or changed by OPLOCs because this was considered a small error that could be
   easily corrected, and invoices without “remit to” addresses were paid because
   the contract contained a “remit to” address. Some invoices were paid without
   invoice dates; the OPLOC created the invoice date. OMB guidance states that
   the following correct information constitutes a proper invoice and is required as
   payment documentation:


                                     51
       •   Name of contractor and invoice date (contractors are encouraged to
           date invoices as close as possible to the date of mailing or
           transmission). DFAS Denver Center guidance agrees that both of
           these are requirements, but gives alternatives if the vendor does not
           include the invoice date.

       •   Contract number or other authorization for delivery of property or
           services (assignment of an invoice number by the contractor is
           recommended). Neither DFAS Denver Center guidance nor DoD
           Regulation 7000.14-R, volume 10, states whether an invoice number
           is needed. DFAS Denver Center guidance states what should be
           done if the vendor did not include an invoice number. The FAR
           states that an invoice number is strongly encouraged.

       •   Description, price, and quantity of property and services actually
           delivered or rendered.

       •   Shipping and payment terms.

       •   Other substantiating documentation or information, as required by
           the contract.

       •   Name (where practicable), title, telephone number, and complete
           mailing address of responsible official to whom the payment is to be
           sent.

The OMB guidance also states that the invoice receipt date is “the date that a
proper invoice is actually received by the designated billing office if the agency
annotates the invoice with the date of receipt at the time of receipt; or . . . the
date placed on the invoice by the contractor, in any case in which the agency
fails to annotate the invoice with the date of receipt at the time of receipt (such
an invoice must be a proper invoice).”

During the audit, 5 Code of Federal Regulations Part 1315 was issued. The
items that were not included in OMB Circular No. A-125 were:

       •   Vendor invoice number, account number, and any other identifying
           number agreed to in the contract (this was highly recommended in
           OMB Circular No. A-125, but not required).

       •   Tax identification number, unless agency procedures provide
           otherwise.

       •   Banking information, unless agency procedures provide otherwise, or
           except in situations where the EFT requirement is waived under 31
           Code of Federal Regulations Part 208.4.




                                   52
Requirements for Receiving Reports. In addition to previously identified
guidance, the Vice Chief of Staff of the Air Force issued a memorandum dated
March 29, 1999, listing the items that are mandatory for a proper receiving
report. OMB Circular No. A-125 states that:
       the following information from the receiving report is required as
       documentation:

       (1) Contract or other authorization number;

       (2) Product or service description;

       (3) Quantities received, if applicable;

       (4) Date(s) property or services delivered and accepted; and

       (5) Signature (or electronic alternative when supported by appropriate
       internal controls), printed name, title, telephone number, and mailing
       address of the receiving official.

The DFAS Denver Center guidance contains one exception to these rules: for
the receipt and acceptance requirement, only the receipt block on the DD
Form 250 needs to be completed. On several items in the sample, the receipt
block was completed, but not the acceptance block.

Contract Requirements. The OMB guidance states that “the following
information from the contract is required as payment documentation: A notation
that partial payments were prohibited in the contract, if applicable.”

Other requirements of a valid contract include:

       •   a signed original contract or other authorization document against
           which payment is being made;

       •   specifics of items or services being purchased;

       •   specific payment terms;

       •   a DUNS number and/or CAGE code;

       •   no pen and ink changes; and

       •   a “remit to” address for non-EFT payments.

Some problems arose with contracts because they did not contain a DUNS
number or CAGE code, one of which needed to locate EFT information for
payment in the CEFT database. Some contracts did not include a “remit to”
address; because the contracts directed the Government to use the contracting



                                        53
address or to “remit to address as invoiced,” the address could not be checked
for correctness. Also, some contracts did not describe the items or services
being purchased, or the descriptions were vague.




                                 54
Appendix F. Structure of Vendor Payment
            Office
   Mailroom Functions. All mail and incoming facsimile message traffic should
   be received and date-stamped in the mailroom of each OPLOC. When these
   functions occur outside the vendor payment office, a single entry point is
   established for incoming documents. OPLOCs were directed to move all
   facsimile machines that receive vendor payment information to the mailroom.
   The mailroom was to date-stamp all documents upon receipt and provide the
   documents to pay technicians in the document control section for distribution.

   Document Control Section. A document control section was established within
   the vendor payment office to maintain positive control over all vendor payment
   documents received from the mailroom. This section receives all incoming
   documents from the mailroom, places them in the contract or obligation folders,
   and sends them to the accounts payable teams for payment processing. When
   the payment documents have been processed, they are stored in the document
   control section until they are assembled as part of a voucher and sent to the
   certification section for payment. If properly established, the document control
   section controls the flow of documents within the OPLOC and screens all
   invoices and receiving reports. This section was to review each document
   received and return any defective documents within 7 days of receipt.

   Obligations Section. Personnel in the obligation section verify the automated
   interface of contract information, or enter in IAPS the obligations for
   miscellaneous payments and contracts that are not in the automated system. If
   errors are noted in the automated interfaces, the clerk makes the required
   adjustments to the payment record in the original contract. If information is
   missing, they contact the contracting office to obtain the correct information and
   have it entered into IAPS. For miscellaneous documents, they validate the
   obligation document and establish the obligation in IAPS. Once properly
   obligated, obligations section personnel send to the document control section a
   payment folder that is either stamped to indicate that the contract is located in
   the Electronic Document Access system, or contains the obligation document.
   When invoices and receiving reports arrive in the document control section,
   they are placed in the payment folders and sent to a payment team for entry into
   IAPS.

   Reports and Reconciliation Section. This section is responsible for correcting
   information in a vendor’s file, such as EFT and remittance information. If a
   clerk determines that an invoice does not match the EFT or remittance
   information in IAPS, the clerk sends the documentation to the responsible pay
   team for correction. Under DFAS guidance, EFT information in IAPS and the
   invoice were compared with what information is in the CEFT. If a discrepancy
   was found, IAPS information was to be updated to reflect the information in the
   CEFT. If the information on the invoice differs from that entered into CEFT,
   the vendor was contacted to resolve the difference, and the payment was
   suspended until corrected. For payments made by check, the remittance address
                                     55
on the invoice was compared with the contract. If the remittance address was
different, DFAS Denver Center guidance allowed a change to the address on the
invoice unless the contract specifically identified a remittance address.

Accounts Payable Section. This section comprises vendor payment teams that
validate invoices and receiving reports against the contract or other obligating
documents; if the contracts are valid, the teams enter pertinent data into IAPS
for payment.

Certification Section. This section is required to validate that payments to be
made are proper. Personnel in the certification section should be experienced
vendor payment technicians who know and will enforce all requirements for a
valid payment. They should validate all supporting documents and ensure that
the information in IAPS is accurate before certifying that the payment is legal,
valid, and proper. Payments that do not meet standards should be voided.
Manual payments are to be approved by the Chief of Vendor Payment before
being sent to the certification section. Certifying officials should balance the
Voucher Control Log and the Unpaid Voucher Report against the original
vouchers.

Customer Service Section. This section responds to questions and concerns
from Air Force customers and vendors, and processes rejected EFTs and
returned checks.




                                  56
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Air National Guard

Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver Center
   Director, Defense Finance and Accounting Service Indianapolis Center
Director, Defense Logistics Agency
Director, Defense Security Assistance Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                       57
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Subcommittee on Administrative Oversight and the Courts,
  Committee on the Judiciary
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                        58
Under Secretary of Defense (Comptroller)
Comments




                 59
Final Report
 Reference




  Page 12




  Page 12




  Page 12




               60
61
Department of the Air Force Comments




                    62
63
  Final
 Report
Reference




Revised




            64
65
 Final Report
  Reference




Redirected and
Renumbered as
Recommendation
B.3.




Renumbered as
Recommendation
B.4.a.1.




                 66
      Final Report
       Reference




     Renumbered as
     Recommendation
     B.4.a.2.




     Renumbered as
     Recommendation
     B.4.a.3.




67
  Final Report
   Reference




Renumbered as
Recommendation
B.4.a.4.




Renumbered as
Recommendation
C-4.




                 68
     Final Report
      Reference




       Deleted




69
Defense Finance and Accounting Service
Comments




                   70
     Final Report
      Reference




       Page 21




      Clarified




71
72
73
  Final Report
   Reference



Redirected




Renumbered as
Recommendation
B.4.a.1.


Renumbered as
Recommendation
B.4.a.2.




Renumbered as
Recommendation
B.4.a.3.




Renumbered as
Recommendation
B.4.a.4.



Renumbered as
Recommendation
B.4.b.




                 74
      Final Report
       Reference




     Renumbered as
     Recommendation
     C.1.a.




     Renumbered as
     Recommendation
     C.1.b.




     Renumbered as
     Recommendation
     C.1.c.




     Renumbered as
     Recommendation
     C.2.




75
Final Report
Reference




Renumbered as
Recommendation
C.3.




Renumbered as
Recommendation
C.4.




Renumbered as
Recommendation
C.5.




                 76
     Final Report
      Reference

     Renumbered as
     Recommendation
     C.6.a.




     Renumbered as
     Recommendation
     C.6.b.




     Renumbered as
     Recommendation
     C.7.




77
78
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report.

    F. Jay Lane
    Salvatore D. Guli
    Richard B. Bird
    Carmelo G. Ventimiglia
    George C. DeBlois
    Rebecca L. Niemeier
    Lusk F. Penn
    Susanne B. Allen
